<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2019 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 115-674, Part 8]
[From the U.S. Government Publishing Office]



                                                 S. Hrg. 115-674, Pt. 8

                DEPARTMENT OF DEFENSE AUTHORIZATION FOR
                APPROPRIATIONS FOR FISCAL YEAR 2019 AND
                    THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2987

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2019 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE AND FOR MILITARY CONSTRUCTION, 
TO PRESCRIBE MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 8

                             CYBERSECURITY

                               __________

                             MARCH 13, 2018

                               __________
                               
                               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                               

         Printed for the use of the Committee on Armed Services


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                               ______                      


               U.S. GOVERNMENT PUBLISHING OFFICE 
41-250 PDF              WASHINGTON : 2020       
        


                      COMMITTEE ON ARMED SERVICES
                      

  JOHN McCAIN, Arizona, Chairman       JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma              BILL NELSON, Florida
ROGER F. WICKER, Mississippi           CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska                  JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                   KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota              RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                       JOE DONNELLY, Indiana
THOM TILLIS, North Carolina            MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                   TIM KAINE, Virginia
DAVID PERDUE, Georgia                  ANGUS S. KING, JR., Maine
TED CRUZ, Texas                        MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina         ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska                    GARY C. PETERS, Michigan
TIM SCOTT, South Carolina            
                                     
                           
                                     
                  Christian D. Brose, Staff Director
                 Elizabeth L. King, Minority Staff 
                              Director



                     Subcommittee on Cybersecurity

    MIKE ROUNDS, South Dakota,      BILL NELSON, Florida
             Chairman               CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska               KIRSTEN E. GILLIBRAND, New York
DAVID PERDUE, Georgia               RICHARD BLUMENTHAL, Connecticut
LINDSEY GRAHAM, South Carolina
BEN SASSE, Nebraska                  
                                     
                                     
                                     

                                  (ii)



                           C O N T E N T S



                             MARCH 13, 2018

                                                                   Page

Cyber Posture....................................................     1

Nakasone, Lieutenant General Paul M., USA, Commanding General,        4
  United States Army Cyber Command.
Gilday, Vice Admiral Michael M., USN, Commander, United States       11
  Fleet Cyber Command, and Commander, United States Tenth Fleet.
Reynolds, Major General Loretta E., USMC, Commander, Marine          22
  Forces Cyberspace Command.
Weggeman, Major General Christopher P., USAF, Commander, Twenty-     30
  Fourth Air Force, and Commander, Air Forces Cyber.

                                 (iii)
                                 
 
                DEPARTMENT OF DEFENSE AUTHORIZATION FOR
                APPROPRIATIONS FOR FISCAL YEAR 2019 AND
                    THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        TUESDAY, MARCH 13, 2018

                               U.S. Senate,
                     Subcommittee on Cybersecurity,
                               Committee on Armed Services,
                                                    Washington, DC.

                             CYBER POSTURE

    The subcommittee met, pursuant to notice, at 2:31 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Mike 
Rounds (presiding) chairman of the subcommittee.
    Members present: Senators Rounds, Sasse, Nelson, McCaskill, 
Gillibrand, and Reed.

            OPENING STATEMENT OF SENATOR MIKE ROUNDS

    Senator Rounds. The Cybersecurity Subcommittee meets today 
to receive testimony on the Cyber Posture of each branch of our 
Armed Forces, from Vice Admiral Michael Gilday, Commander, 
Fleet Cyber Command; Lieutenant General Paul Nakasone, 
Commander, Army Cyber Command, and nominee to be the next 
Commander of the United States Cyber Command, and Director of 
the National Security Agency; Major General Loretta Reynolds, 
Commander, Marine Forces Cyber Command; and Major General 
Christopher Weggeman, Commander, Air Force Cyber.
    At the conclusion of Ranking Member Nelson's remarks, we 
will ask our witnesses to make their opening statements. After 
that, we'll give each of our members 5 minutes to ask questions 
of our witnesses.
    As we approach full operational capability later this year, 
maturation of the Cyber Mission Force continues at an 
impressive pace. According to Admiral Rogers' testimony a 
couple of weeks ago, we are on pace to reach that milestone 
earlier than planned. This, along with the many other advances 
we see as the Department takes what was once a niche capability 
and transforms it into a multifaceted warfighting discipline, 
is the result of your hard work. We thank you for your 
leadership.
    Despite the successes, however, challenges remain as your 
focus now shifts from building a first-of-its-kind force to 
sustaining one. In particular, that sustainment will require a 
robust pipeline of talent ready to take the reins as soldiers 
and civilians move to other disciplines, are promoted, or 
separate from the military to take cyber jobs in the private 
sector.
    Last year, we heard about the 127 Air Force cyber officers 
who, after completing their tour on the Cyber Mission Force, 
departed the Cyber Mission Force. We understand that was an 
isolated incident and that each of the Services has enhanced 
its focus on how it manages it force. Just recently, the Marine 
Corps announced that it was creating a cyberspace occupational 
field to address some of these challenges. I think we all 
expect this to be a perpetual challenge, and we look forward to 
hearing how you are working together, sharing ideas, and 
pursuing creative approaches to make certain that we develop 
the bench strength that we require.
    When it comes to providing the cyberweapons that the force 
will need to deter and defend its cyberspace, there, too, is 
significant room for improvement. As we heard from Admiral 
Rogers a couple of weeks ago, we are not where we need to be. 
Numerous niche capabilities exist today; however, across the 
enterprise, the capabilities for training and conducting 
operations are in the earlier stages of development and won't 
be delivered for some time. The force will undoubtedly be 
hollow in the near term, and it is incumbent upon each of you 
to deliver those fundamental tools and capabilities as quickly 
as possible to make certain that the impressive gains you have 
made in training the force are not lost because of this lack of 
cyberweapons. We have been largely critical of the Department 
regarding this failure in the past, but we do see progress.
    The fiscal year 2019 budget requests included $1.8 billion 
for the manning, training, and equipping of the Cyber Mission 
Force. The Army and the Air Force requested approximately $700 
million each in fiscal year 2019. The Navy request, however, 
was only $318 million and is less than half the request of its 
peers. Both the Army and the Air Force have committed to 
developing foundational capabilities, like the Army's 
persistent cyber training environment and the Air Force's 
unified platform. We look forward to hearing more from the Navy 
and the Marine Corps as to why, legitimately, their funding 
requirements are substantially less than the other Services.
    I think our hearing would be incomplete without some 
discussion of the Services' offensive and defensive cyber 
capabilities. Of particular interest to me is the Services' 
offensive capabilities in the context of the report of the 
Defense Science Board Task Force on Cyber Deterrence, which was 
published in February 2017, just over a year ago. As we know, 
that report notes the importance of a strong cyber deterrent 
for the next 10 years, a period during which we will not have 
the defensive capability to defeat our peer adversaries' 
offensive capabilities. I would be interested in how the 
Services are focusing to meet that challenge and policy 
issues--policy issues--that may be inhibiting their ability to 
do so.
    Finally, I would like to know how the Services assess their 
capabilities to provide support to civil authorities.
    Let me close by expressing our gratitude to the witnesses. 
Yes, issues do remain, but the progress made in the past 8 
years is a testament to the advocacy and leadership of each of 
you and your predecessors. Thank you again for your service and 
your willingness to appear today before our subcommittee.
    Senator Nelson.

                STATEMENT OF SENATOR BILL NELSON

    Senator Nelson. Thank you, Mr. Chairman.
    I want to hit three issues for you all to contemplate and 
to respond to.
    The first is just how disorganized the Department of 
Defense is when it comes to information warfare or information 
operations. Officially, doctrine recognizes that information 
operations include cyber, psychological, electronic, and public 
affairs. There's even an organization called Joint Information 
Warfare Center, and at the level of the Military Services 
represented here today, there is some integration of all of 
these elements. But, above that level, these elements are all 
dispersed. Cyber Command doesn't have the responsibility for 
information operations, which, these days, are conducted 
largely through cyberspace, and information operations and 
electronic warfare are the responsibility of still other parts 
of the Department. Now, why does this matter? Because Russia's 
information operations troops conduct both technical and 
cognitive operations in an integrated way. We conduct 
information operations in support of commanders at the tactical 
level. Putin and other adversaries are coming at us at the 
strategic level in so-called peacetime. I'm afraid that we are 
ceding the playing field. I look forward to you all giving us 
your answers to this.
    The second issue is the slow pace of progress in equipping 
the cyber units that we have built. We've manned and trained 
our cyber units, but we still lack basic joint capabilities for 
command and control, the clandestine network infrastructure 
needed to maneuver our forces in cyberspace, and the tools and 
weapons that they need.
    The third issue is: we have to squarely face the reluctance 
to use military cyber units to respond to attacks against us, 
to confront Russian hackers and trolls, to harass North Korean 
operators who attack Sony, and to disrupt ISIS [Islamic State 
of Iraq and Syria] Internet operations outside areas of 
declared hostilities. We're not conducting our own information 
operations to defend against and to deter acts--attacks and 
acts on us and our allies.
    This is not just about Russia. It's about differing views 
among all the parts of our Government about what constitutes 
traditional military activities. We have to change this. Our 
forces can't just watch our adversaries in cyberspace. I 
applaud General Weggeman for stating, in his prepared comments, 
and I quote, ``We must challenge outmoded concepts of 
sovereignty, attribution, and intelligence gain/loss 
calculations which overly constrain our ability to achieve 
cyberspace superiority,'' end of quote.
    We're all concerned about these threats, but that concern 
has not yet been matched by action. I want to hear what each of 
you think, and I realize, as stated to us by the four-star 
Commander of Cyber Command, he hasn't been given the direction. 
So, I understand the constraints that you have. But, we've got 
to get this out on the table. I hope we can start today.
    Thank you, Mr. Chairman.
    Senator Rounds. Thank you, Senator Nelson. I think you do a 
good lead-in to a lot of not just the capabilities that we've 
got, but to the policy issues we have to address, as well.
    I'm not sure how you would like to proceed, or in what 
order you would like to proceed. If there is a preference, I 
would allow our witnesses to make that determination.
    Lieutenant General Nakasone, have you--would you care to 
begin, sir?

    STATEMENT OF LIEUTENANT GENERAL PAUL M. NAKASONE, USA, 
      COMMANDING GENERAL, UNITED STATES ARMY CYBER COMMAND

    Lieutenant General Nakasone. Thank you, Senator.
    Senator Rounds--Chairman Rounds, Ranking Member Nelson, and 
members of the subcommittee, it's honor--it's an honor to be 
here, alongside my joint teammates, representing U.S. Army 
Cyber Command.
    My testimony today focuses on the progress Army Cyber 
Command has made since May 2017, when I last sat before this 
subcommittee.
    Today, the Army's 41 Active Cyber Mission Force Teams are 
fully operational, on mission, equipped, and delivering 
capabilities to joint and Army commanders in contingency 
operations across the globe. With the initial build of the Army 
Cyber Mission Force complete, our cyber is now focused on 
sustaining and measure readiness and building the Army's 21 
Reserve component teams. All 21 Reserve component teams, which 
are now part of the Cyber Mission Force, will reach initial 
operational capability by 30 September 2022, and full 
operational capability by 30 September 2024.
    We continue to make our networks more secure and more 
dependable through convergence, modernization, and 
standardization. A key priority is updating Army computers to a 
more secure operating system, a system known as Windows 10. 
Over the past 12 months, the Army has already upgraded over 95 
percent of its approximately one million computers.
    Regarding training, the Army Cyber Center of Excellence is 
now teaching all cohorts from all components and preparing to 
integrate the electronic warfare force into the cyber career 
field. The Army also continues to guide program management for 
the joint persistent cyber training environment. We are 
leveraging existing infrastructure and resources to integrate 
the best government off-the-shelf and commercial off-the-shelf 
solutions. Construction on the Army Cyber Command Headquarters 
Complex at Fort Gordon continues and is taking shape, 
transforming the Fort Gordon region into a cyberspace hub for 
the Army and the Nation.
    Thanks to congressional support, Army talent management 
initiatives are also paying off. We will soon have the Army's 
first direct commissioned cyber officers, and our civilian 
cyber operators will have a new career management field. We are 
also incentivizing soldiers through expanded use of the 
assignment incentive pay and special duty assignment pay.
    Partnerships remain critical to our efforts. We are 
leveraging the private sector, the academic community, and the 
key allies to rapidly develop and deliver new capabilities to 
the joint force and our Army.
    In the future, the Army will require sustained investment 
in science and technology to capitalize on the advancements in 
artificial intelligence and other innovative capabilities. We 
also need to pursue force structure and capabilities at the 
Army corps level and below to ensure we have the tactical 
capabilities our pilot initiatives have shown.
    Today, the Army is driving hard to lay the groundwork for 
the future force. With Congress' support, we will continue to 
build upon our momentum to deliver a formidable cyber force to 
our warfighting commanders.
    Mr. Chairman, I would request my written testimony be 
entered into the official record, and I'm happy to answer the 
committee's questions.
    [The prepared statement of General Nakasone follows:]

       Prepared Statement by Lieutenant General Paul M. Nakasone
    Chairman Rounds, Ranking Member Nelson, and Members of the 
Subcommittee, I want to thank you for your continued support of U.S. 
Army Cyber Command (ARCYBER) and our efforts operationalizing 
cyberspace for the Army in support of our warfighting commanders. It's 
an honor for me to represent the extraordinary soldiers and Army 
civilians of ARCYBER and the entire Army Cyber Enterprise. My testimony 
focuses on the Army's ongoing progress and key milestones the Army has 
reached since I last testified before this subcommittee in May 2017.
    Army Cyber Command's mission is to direct and conduct integrated 
electronic warfare, information and cyberspace operations as 
authorized, or directed, to ensure freedom of action in and through 
cyberspace and the information environment, and to deny the same to our 
adversaries. Our operational units include: the Joint Force 
Headquarters-Cyber (Army); the Network Enterprise Technology Command 
(NETCOM); the 780th Military Intelligence Brigade (Cyber); the 1st 
Information Operations Command; and the Army Cyber Protection Brigade.
    To be successful in our challenging mission, we closely partner 
with the other members of the Army Cyber Enterprise, which include the 
Army Cyber Center of Excellence (Cyber COE); the Army Cyber Directorate 
within the Headquarters Department of the Army (DAMO-CY); and the Army 
Cyber Institute at West Point (ACI). Together, the Army Cyber 
Enterprise has made significant progress, operationally and 
institutionally, in preparing the Army for the future fight.
    Operationally, ARCYBER achieved a significant milestone in 
September 2017 when all 41 Army Cyber Mission Force (CMF) teams became 
fully-operational, a year ahead of U.S. Cyber Command's (USCYBERCOM's) 
mandate. These teams were put on-mission as soon as they became 
available. In addition to these 41 Active component teams, the Army is 
building 21 Reserve component (RC) teams trained to the same Joint 
standards and integrated into a Total Force team. Last August, the 
first Army National Guard (ARNG) Cyber task force--Task Force Echo--
assumed a critical mission for USCYBERCOM to engineer, install, 
operate, and maintain critical network infrastructure.
    Today, the Army's Total Cyber Force is in the real-world fight 24/
7--against near-peer adversaries, ISIS, and other global threats. Since 
last May, ARCYBER has provided support to Army commanders, with special 
emphasis on the Pacific theater, to ensure select networks, systems and 
data are protected and secure. Army cyber forces have also supported 
the Joint force as an integral part of Joint Task Force ARES (JTF-
ARES), a JTF that I'm privileged to lead that has been countering ISIS' 
use of cyberspace as a domain to spread messages and coordinate combat 
activity. The work of JTF-ARES has been an important part of the 
coordinated multi-domain military campaign that helped defeat ISIS on 
the ground in Iraq and Syria.
    Institutionally, the Army Cyber Center of Excellence has made 
significant progress developing the cyber workforce. In August, the 
first class of enlisted cyber operators graduated the Army Cyber 
School. The Cyber School is now training all soldier cohorts (officers, 
warrant officers, and enlisted members) from all three force components 
(Active, Guard, and Reserve). The first Reserve component soldiers 
graduated from the Cyber School in fiscal year 2017.
    The Army invests approximately $1.9 billion annually to fund the 
cyber workforce, operational units, and operate and maintain the Army 
portion of the DOD information network (DODIN). Investments into our 
cyber capabilities remain a top priority and we are continually 
refining our requirements, and improving resourcing and acquisition 
processes to ensure that they are agile enough to rapidly translate 
innovative concepts into realized capabilities.
    Building on the Army's operational and institutional momentum, 
ARCYBER has pursued three mutually supported priorities: aggressively 
operate and defend our networks, data, and weapons systems; deliver 
effects against our adversaries; and design, build, and deliver 
integrated capabilities for the future fight. The following narrative 
describes the Army Cyberspace Enterprise's accomplishments across these 
priorities encompassing the areas of Operations, Readiness, Resources, 
Training, and Partnering.
                               operations
    Cyberspace operations encompass three interrelated mission areas: 
Department of Defense Information Network (DODIN) operations, Defensive 
Cyberspace Operations (DCO), and Offensive Cyberspace Operations (OCO). 
Army DODIN operations, which include building, operating, defending, 
and maintaining the Army's portion of the DODIN, is our most complex 
mission because it underpins essential Army functions from mission 
command to business operations. Most cyberspace operations are 
defensive. Army Cyber Command's five Regional Cyber Centers (RCCs) 
provide enterprise-level defensive cyberspace operations and DODIN 
Operations support to our Network Enterprise Centers, including local 
information technology services. We are currently standardizing our 
RCCs to ensure effective and efficient alignment of missions, tasks, 
manning, structure, and tools. Additional efforts to improve our 
network defense include ``Bug Bounty'' exercises and the Vulnerability 
Disclosure Program that partners us with industry to use the best 
ethical hackers to identify and fix previously unknown vulnerabilities 
in Army networks.
    The 20 Cyber Protection Teams (CPTs) of our Army Cyber Protection 
Brigade (CPB) conduct Active Defensive Cyberspace Operations and are 
invaluable in thwarting adversary actions that threaten critical Army 
and DOD networks and systems. Our CPTs deploy worldwide with mobile 
capabilities within hours of notification to protect and defend the 
Army's critical infrastructure, platforms, weapons systems, and data, 
supporting both national requirements and Joint and Army commanders.
    Offensive Cyberspace Operations are cyberspace operations intended 
to project power by the application of force in or through cyberspace. 
The Army Cyber Mission Forces execute OCO using the same process of 
delegation of authority that governs conventional military combat 
operations, descending from the President, to the Secretary of Defense, 
to Combatant Commands and United States Cyber Command. The Army also 
has 21 OCO teams that are aligned in support of five Operational 
Commands: Cyber Command, Central Command, European Command, Pacific 
Command and Africa Command.
                               readiness
    Readiness is the Army's number one priority. Once Army Cyber 
Command (ARCYBER) completed the build of all 41 Army Active Component 
Cyber Mission Force (CMF) teams in September 2017, we transitioned from 
building cyber capacity to maintaining ready cyber forces. To do this, 
we are moving to a sustainable readiness model that will ensure our 
cyber forces are resilient and set conditions for multi-domain battle. 
Currently, we are investing $750 million into our Cyber Mission Forces.
    To ensure our forces are ready to meet this challenge, the Army has 
funded a new cyberspace operations facility at Fort Gordon that will 
provide a cutting edge operational headquarters for both offensive and 
defensive operations. This facility is currently under construction, to 
be delivered in fiscal year 2020.
    In addition to the proper facilities, ready cyber forces also 
require a firing platform, operational infrastructure, and access. To 
address these needs, the Army has built a rapid capability development 
network, and has adopted an operational platform that soldiers will use 
for training at the Cyber Center of Excellence and for operations upon 
graduation. Operational infrastructure provides the team's access to 
the cyberspace domain (Internet). A cyberspace capability is a device, 
computer program, or technique, including any combination of software, 
firmware, or hardware, designed to create an effect in or through 
cyberspace. The cyberspace capability is what enables the operator to 
create effects in and through cyberspace targeting specified systems or 
devices. The ability of a trained cyber team to bring each of these 
technological capabilities to bear on a target is the true measure of 
readiness, and it is something that we are working every day to 
achieve.
    ARCYBER is also working closely with the team developing the 
Persistent Cyber Training Environment (PCTE). When fielded, this system 
will provide an environment to train cyber operators both individually 
and collectively. The system will also be used to replicate various 
network environments that can be used to conduct mission rehearsals.
    Sustainable readiness is not just focused on the Active component, 
it relies on the Total Army cyber force. The Army is building 21 
Reserve component (RC) Cyber Mission Force teams, including 10 U.S. 
Army Reserve (USAR) teams and 11 Army National Guard (ARNG) teams, 
bringing the strength of the Total Army cyber force to 62 teams in 
total. These RC teams will be trained to the same Joint standard as the 
Active Duty Force.
    Over the last 10 months, we have made progress closing gaps in 
timing, resourcing, and mission alignment to ensure these Army teams 
are effectively integrated into the DOD Cyber Mission Force (CMF). The 
ARNG is scheduled to have one CPT reach Initial Operational Capability 
in fiscal year 2018 and the USAR plans for two CPTs to reach Initial 
Operating Capability in fiscal year 2018. The Cyber COE continues to 
resource training for the RC teams, conducting transfer panels to 
transition existing soldiers into the Cyber branch as well as 
allocating seats for training at the Cyber School. Once the teams are 
manned, they will be fielded the same equipment as Active component 
teams. All 21 Reserve component CPTs will reach Initial Operating 
Capability by 30 September 2022 will be fully operational by 30 
September 2024.
                           network readiness
    Network readiness is a critical component of overall Army 
readiness. We invest approximately $400 million annually into network 
readiness. The Army currently measures network compliance with policy, 
regulation, and law through the Cybersecurity Scorecard, Command Cyber 
Readiness Inspections (CCRI), and Command Cyber Operational Readiness 
Inspections (CCORI). To assist Army units in improving their network 
readiness, ARCYBER conducts staff assistance visits prior to 
inspections. During 2017, every organization that received a staff 
assistance visit improved their scorecard measurement by an average of 
15 points during the CCRI. The number of unit networks that failed to 
pass a CCRI dropped from 23 to three. Thus far, in 2018, we have had no 
failures. Additionally, ARCYBER has placed a renewed emphasis and 
commitment on the integration of the ARNG networks.
    Making our networks more defensible is the main thrust of our 
priority to, ``aggressively operate and defend our networks, data, and 
weapons systems,'' designed to harden and modernize our networks and 
conduct defensive cyberspace operations. The Army is systematically 
improving its defensive posture with architecture modernization efforts 
that reduce attack surface area, improve bandwidth and reliability, and 
fortify our long-standing, but ever-critical perimeter defense 
capability.
    A key priority has been upgrading Army computers to a more secure 
operating system, Windows 10 (WIN10). The Army recently achieved a 
major milestone with 95 percent of its approximately one million 
computers already upgraded. In order to stay ahead of the cyber threat, 
the Army is moving to an ``as a service'' approach for DODIN services 
and capabilities, while maintaining operational oversight. These 
efforts include endpoint management and security, Army Enterprise Data 
Centers, and cloud services.
    Endpoint management security, network convergence, and cyber 
analytics are enhancing our situational awareness, enabling us to see 
and defend DOD networks and giving us unprecedented levels of DODIN/
Defensive Cyberspace Operations integration to better enable the 
warfighter while defeating cyber threats. Big Data analytics are 
foundational to improving cyber readiness and resiliency. The Army is 
using data analytics to improve our situational understanding of our 
networks--to see not only adversary activity, but also ourselves; and 
using this information as part of a risk management strategy to inform 
our cybersecurity decision making. The Army is developing an analytic 
framework for conducting advanced cyber defense that begins with 
continuous monitoring of the cyber operational environment.
    We are also continuing modernization efforts designed to improve 
the Army's ability to defend its networks; achieve greater 
standardization and interoperability; and dispose of older, less secure 
systems. Network modernization efforts include: Joint Regional Security 
Stack (JRSS) migration, Multiprotocol Label Switching (MPLS) upgrades, 
and Installation Campus Area Network (ICAN) upgrades.
    Network modernization efforts are also allowing us to increase 
bandwidth significantly, critical to moving toward a cloud-based and 
virtualized architecture. In the near future, the Army will use 
private, public, and hybrid clouds that will store and protect data in 
centralized repositories, improving data access and enabling global 
availability. As part of this effort, the Army is consolidating its 
data centers to enhance security and cost efficiencies. Reducing the 
Army's data center inventory will enable the follow-on transition to a 
long-term end state of four continental U.S. Army Enterprise Data 
Centers.
    Additionally, as directed in the Section 1647 of the National 
Defense Authorization Act (NDAA) for fiscal year (FY) 2016, the Army's 
Cyberspace Operational Resiliency Assessment-Platform (CORA-P) program 
is evaluating the cyber vulnerabilities of major weapon systems. We are 
currently assessing 13 of 24 high priority systems. In response to 
Section 1650 of the NDAA for fiscal year 2017, the Army is developing a 
plan to evaluate cyber vulnerabilities in the critical infrastructure 
of 27 Army installations.
                               resources
    The Army is on pace to man, train, and equip Total Army cyber 
forces to meet current and future threats. Readiness of the total force 
requires that our investments in cyber ensure that Active and Reserve 
forces are trained and equipped to common standards. People remain our 
most critical resource. Annually, ARCYBER spends $585 million to 
compensate its civilian workforce. Over the past 12 months we have 
devoted tremendous effort to ensure we can recruit, develop, employ and 
retain the talented workforce we need to accomplish our mission. We are 
also increasing our presence at key hiring fairs and participating in a 
number of existing internship programs. In addition, over the last 
three months we began exercising the direct hiring authority granted by 
Congress, which enables us to make on-the-spot tentative job offers at 
hiring fairs. All of these efforts should enable us to bring on 
hundreds of new civilian employees this year.
    The Army has also begun conducting a Direct Commissioning pilot 
program, pursuant to the authority Congress gave us in Section 509 of 
the NDAA for fiscal year 2017, which will commission civilians directly 
into the Army as 1st Lieutenants. To date, over one hundred people have 
applied for direct commissioning, though unfortunately most have been 
unqualified based on age, education or experience. There are currently 
two candidates who will likely attend initial training in May 2018. 
Initial indications from the first two iterations of the Direct 
Commissioning pilot are that legal limits on constructive credit for 
cyber officers are preventing more qualified candidates from applying 
for the program.
    Since I last testified, the Army has expanded two key compensation 
programs for cyber soldiers. Assignment Incentive Pay (AIP) is designed 
to encourage officers, warrant officers and enlisted soldiers to 
volunteer, train, and perform Cyber Mission Force work roles that are 
otherwise difficult to fill. Currently, ARCYBER has 1,850 eligible 
positions tied to AIP and the Army has budgeted approximately $1.6 
million annually to compensate soldiers who fill those roles.
    Special Duty Assignment Pay (SDAP) is designed to compensate 
enlisted soldiers assigned to duties designated as extremely difficult 
or that involve an unusual degree of military skill. Currently, ARCYBER 
has 1,245 eligible enlisted soldier positions tied to SDAP and the Army 
has budgeted approximately $108k annually to compensate those soldiers. 
Both programs will incentivize soldiers for the unique talents and 
skill sets that are required to execute the Army's overall cyber 
mission, and improve the readiness of the Cyber Mission Force.
    In addition to monetary compensation, the Army also offers cyber 
soldiers the opportunity to participate in Training With Industry 
(TWI), or attend graduate school through the Advanced Civil Schooling 
program. ARCYBER also has the flexibility to detail some of our 
talented staff to the Defense Digital Service. These opportunities 
enable our soldiers to learn from industry, improve their education, 
and address some of the Department's toughest technological problems.
                  arcyber move to fort gordon, georgia
    Today, ARCYBER headquarters is split-based at Fort Belvoir, 
Virginia; Fort Meade, Maryland; and Fort Gordon, Georgia. Within four 
years, the ARCYBER headquarters will consolidate at Fort Gordon. As our 
Command transitions to Fort Gordon, the $180 million construction 
projects for our state-of-the-art headquarters is well underway, thanks 
to Congressional support. The new facilities will support more than 
1,300 cyber soldiers and civilian employees, and are projected to be 
ready for occupation in summer 2020. Army Cyber Command is expected to 
be fully operational at Fort Gordon by 2022. With the addition of the 
ARCYBER headquarters, the Augusta, Georgia region will become a center 
of gravity for U.S. Army cyberspace operations, providing a unified and 
consolidated operational and institutional home.
                     limited acquisition authority
    Following the establishment of USCYBERCOM and ARCYBER, both DOD and 
the Army recognized the need to find creative ways to maintain a 
competitive advantage in cyberspace. As it became apparent that speed 
and agility were critical in cyberspace, the Army needed to reduce the 
time and cost necessary to buy, test, and field new platforms and 
application technologies through the normal acquisition process. The 
Army subsequently initiated several innovative approaches designed to 
develop and deliver cyber capabilities more quickly, in order to keep 
ahead of our adversaries. This included granting ARCYBER Limited 
Acquisition Authority in August 2017, enabling us to meet the ``need of 
speed'' demanded in cyberspace operations. ARCYBER is using its Limited 
Acquisition Authority to wisely invest its resources in the most 
innovative and cutting-edge items that can rapidly benefit our force. 
We will likely leverage rapid contracting mechanisms such as Other 
Transaction Authority through partners like DIUx.
                                training
    The Army Cyber Center of Excellence (Cyber COE) located at Fort 
Gordon, Georgia, provides training, force modernization, and career 
management for the Army's Cyber, Signal, and Electronic Warfare 
specialties. The Signal School provides trained soldiers to the 
operational force to conduct Department of Defense Information Network 
(DODIN) operations and cybersecurity. They train on average over 11,000 
soldiers per year across 17 Military Occupational Specialties. Signal 
Soldiers install, operate, and maintain the Army's portion of the 
DODIN. The Signal School is aggressively pursuing a change to their 
training model that will provide all Signal Soldiers a common 
foundation in networking fundamentals in support of DODIN operations.
    Established in 2014, the U.S. Army Cyber School trains Army Cyber 
Branch Soldiers and cyber personnel from the other Services. The Cyber 
School provides training in offensive cyberspace operations and 
defensive cyberspace operations at Fort Gordon, GA, and electronic 
warfare at Fort Sill, OK. The first class of Army Cyber Branch 
lieutenants graduated in May 2016; the first class of cyber warrant 
officers graduated in March 2017; and the first class of new cyber 
enlisted recruits graduated in August 2017. Additionally, the Cyber 
School has trained 101 sister Service personnel and 68 Army Civilians. 
The Cyber School trained a total of 151 Cyber Branch soldiers during 
fiscal year 2016 and another 305 soldiers during fiscal year 2017. The 
Cyber School has established all courses necessary to meet anticipated 
training requirements for over 900 soldiers annually to meet natural 
career progression and replacement of Cyber Branch Soldiers.
    In addition to the Cyber School training, our Cyber Protection 
Brigade has developed ``Cyber Gunnery Tables,'' similar in concept to 
the gunnery tables of maneuver branches, to ensure our Cyber Protection 
Team operators can effectively employ their DCO system. A Cyber 
Protection Team's DCO system enables the team to maneuver on Army 
networks to find, fix, and destroy enemy capabilities. These tables 
define the tasks that individuals, crews, and mission elements must 
master in order to effectively conduct DCO--Internal Defense Measures 
on the CPTs DCO system. They provide structured, methodical, and 
foundational training for individuals and teams. These gunnery tables 
also serve as training and readiness validation events, certifying that 
a crew has the required knowledge, skills, and abilities to participate 
in collective exercises as part of a mission element. They also provide 
a metrics-based assessment to objectively determine individual and crew 
readiness. Further, our teams use challenging competition-type 
exercises, such as Cyber Stakes, where individuals and teams can 
demonstrate their technical aptitude and sharpen their skills.
    Additionally, the Cyber School is working several initiatives 
specifically directed at integrating Army Reserve component (RC) cyber 
forces. For example, in fiscal year 2017 the Cyber School conducted 
three Mobile Training Teams (MTTs) providing a total of 316 training 
seats; throughout fiscal year 2018 they will conduct seven MTTs, and 
they are prepared to support a minimum of seven MTTs in fiscal year 
2019. These MTTs train approximately 30 students per iteration and are 
held at venues convenient to the Reserve component units. The Cyber COE 
has also conducted eight Cyber Branch Transfer/Reclassification panels 
and numerous off-cycle assessment panels for Reserve component 
applicants, selecting 470 soldiers from the Reserve component for 
transfer into the cyber branch. The Cyber COE is also working within 
the Army to ensure the Reserve component can build personnel capacity 
and meet FOC training requirements without negatively impacting unit 
readiness reporting.
    The Persistent Cyber Training Environment (PCTE) will provide high 
quality scenarios and event management to all four Services and 
USCYBERCOM, delivering a virtual environment that will enable training 
and mission rehearsals for squads, mission elements, and teams. The 
acquisition strategy for PCTE is to leverage existing infrastructure, 
transportation, and range resources, and to integrate the best 
government off-the-shelf and commercial off-the-shelf solutions. The 
program office is currently building cloud capacity that will host the 
Persistent Cyber Training Environment. Through incremental 
developments, the Army is creating low fidelity prototype training 
environments and leveraging the Service cyber components and DOD cyber 
ranges to develop high fidelity environments. Through a series of Cyber 
Innovation Challenges, two in progress to date, the program office will 
leverage industry and existing cyber training capabilities to refine 
event management and training management.
                                  cscb
    Since 2015, the Army's Cyber Electro Magnetic Activities (CEMA) 
Support to Corps and Below (CSCB) pilot has been integrated into nine 
rotations at the Army's Combat Training Centers (CTCs), helping Brigade 
Combat Teams (BCTs) integrate CEMA, which spans offensive and defensive 
cyberspace, electronic warfare, and information operations into a BCT's 
operations process. This pilot has helped BCTs leverage CEMA to 
understand their unit's footprint in the cyberspace domain and in the 
electromagnetic spectrum, and to better deliver cyberspace effects and 
conduct electronic warfare in support of their operations. The pilot 
has also helped the BCTs to maximize the role of the organic Electronic 
Warfare Section and identified the best methods of leveraging the new 
Expeditionary CEMA Team concept under the proposed Cyberspace Warfare 
Support Battalion (CWSB).
    The lessons learned through our CSCB initiative have been valuable 
and put to direct use. Today, our cyber forces are supporting 
operational units in Iraq, Syria, Afghanistan, Korea, and Europe. We're 
equipping and training units with new tools, giving them a marked 
advantage over the adversary. We're also supporting training for the 
new Security Force Assistance Brigade, providing expeditionary and 
remote OCO, DCO, Electronic Warfare, and Information Operations. 
ARCYBER is helping shape the CEMA capabilities of the Army's Multi-
Domain Task Force initiative and lessons learned are being applied to 
global contingency operations. We continue to support the training of 
Brigade Combat Teams, helping build-out a contested and congested 
cyberspace domain and Electro Magnetic Spectrum infrastructure at 
Combat Training Centers and replicating real near-peer threats.
                               partnering
    In our headquarters we often say that cyber is a team sport. Since 
I last testified, we have partnered closely with the Defense Digital 
Service (DDS) on a number of important projects. We have worked closely 
with DDS to conduct a bug bounty on one of the Army's key logistics 
systems to identify and resolve vulnerabilities before our adversaries 
could find and exploit them. Additionally, we have partnered with them 
to pilot a new training program at the Cyber Center of Excellence for 
enlisted cyber soldiers. The intent of this pilot program is to shorten 
the training time for recruits. If recruits demonstrate the necessary 
skills, they can proceed more quickly through the training program. 
This more dynamic training format would enable many of the recruits 
with a computer science background to complete what was a six-month 
training program in as little as 12 weeks.
    We have also partnered with the DDS to create tiger teams composed 
of DDS personnel and ARCYBER soldiers. One such team developed a 
counter-unmanned aircraft system (C-UAS) capability that can be used by 
battlefield commanders. Finally, Army Cyber Command has collaborated 
with DDS to develop an outpost at Fort Gordon, by the summer of 2018, 
which will facilitate identifying top technical talent to support the 
rapid development of solutions to top cyber threats.
    Army Cyber Command is also closely partnered with Defense 
Innovation Unit--Experimental (DIUx). We meet monthly to share and 
collaborate on problem statements and commercial solutions that could 
address Army operational gaps and needs. Several projects sponsored by 
DIUx are under evaluation by ARCYBER for Defensive and Offensive Cyber 
Operations capabilities. In particular, we are assessing specialized 
software as a solution to endpoint threat detection/interrogation. We 
have also coordinated with DIUx for problem statements relating to 
Advanced Sensors and Machine Learning.
    Key partners and allies bring unique capabilities, skills and 
approaches to the cyberspace operational environment. Each nation has 
benefited from our partnerships through information sharing and 
operational collaboration. Maintaining and improving these 
relationships will be critical to operational success regardless of the 
potential adversary.
                               conclusion
    The Army Cyber Enterprise has made significant progress throughout 
2017.

    <bullet>  The Army's 41 Active Cyber Mission Force teams are fully 
operational, on-mission, and delivering unprecedented capabilities to 
our combatant and Army commanders every day.
    <bullet>  We are continuing to make our networks more secure and 
more defendable through modernization and consolidation.
    <bullet>  The Army Cyber Center of Excellence is now training all 
cohorts and all components, and preparing to integrate the Electronic 
Warfare force into the cyber career field.
    <bullet>  Construction on the Army Cyber headquarters complex at 
Fort Gordon, Georgia is taking shape, and will transform the Fort 
Gordon region into a cyberspace hub for the Army and the Nation.
    <bullet>  Our investments in soldiers and civilians through 
innovative talent management initiatives are paying off.

    The Army is driving hard to lay the groundwork for the future 
force. We are moving toward developing a sustainable readiness model 
for the Total Army cyber force; building an in-house development 
capability; and organizing an expeditionary CEMA force. Every day our 
people are innovating and adapting, positively impacting the way we 
organize, train, and equip the Army cyber force, enabling us to stay 
ahead of our adversaries and to ensure the Army is ready to fight and 
win. With the continued support of Congress, the Army will continue to 
build upon this tremendous momentum to deliver an elite cyber force to 
our warfighting commanders.

    Senator Rounds. Thank you. Thank you, Lieutenant General 
Nakasone.
    All of your complete messages or reports will be entered 
into the record, without objection.
    Vice Admiral Gilday.

 STATEMENT OF VICE ADMIRAL MICHAEL M. GILDAY, USN, COMMANDER, 
UNITED STATES FLEET CYBER COMMAND, AND COMMANDER, UNITED STATES 
                          TENTH FLEET

    Vice Admiral Gilday. Chairman Rounds, Ranking Member 
Nelson, Senator Sasse, good afternoon. On behalf of the sailors 
and the civilians of Fleet Cyber Command, it's an honor to be 
here with my joint teammates, and I thank you for the 
opportunity to appear. I also want to thank you for your 
leadership and for your support in helping to keep our Nation 
secure in this complex domain of cyberspace.
    Since appearing before this committee last year, and like 
my fellow cyber component commanders, I have continued to 
observe an upward trend in the capacity, the capabilities, the 
sophistication, and the persistence of cyberthreats against our 
networks. Cyberspace intersects every one of our Navy's 
missions, and it requires an adaptive approach to counter the 
threat.
    Navy's approach for offensive and defensive cyber can 
really be summarized in three broad areas: first, modernizing 
our existing networks; second, by investing in new technologies 
and partnerships; and lastly, by carefully managing our talent.
    First, we are modernizing and defending our networks by 
implementing our cyber resilience strategy, focused on 
hardening our network infrastructure and reducing its attack 
surface. We're in the fifth year of this ongoing effort. 
Further, we have extended our defensive posture to include 
deploying defensive cyber teams with our carrier strike groups 
and our amphibious readiness groups.
    Second, we are investing in new technologies and 
partnerships for the offense and the defense through a series 
of initiatives, including transitioning to cloud-based 
technologies. At the same time, we are investing in 
improvements to defend and to gain better situational awareness 
deep inside our networks. We are leveraging the data sciences 
through the Navy's new Digital Warfare Office, and 
collaborating with industry and academia to apply new 
technologies, like machine learning and artificial 
intelligence. We continue to mature partnerships with a host of 
allies and partners. We have established two new commands, one 
for doctrine development and the other for training, both 
improving the integration of cyberspace and electronic warfare 
into fleet operations.
    Third, we're committed to growing and sustaining our talent 
base. Now that all 40 Navy cyber teams have reached full 
operational capability, we are focused, as Admiral--as General 
Nakasone said, on sustaining a mission-ready force. We are 
meeting, and in some cases exceeding, accession and retention 
goals for both officers and enlisted, as well as expanding our 
direct-commission cyber warrant officer and cyber warfare 
engineer programs to capitalize on our technical talent. We're 
improving the ways we integrate cyber talent from the Reserve 
force, and we are implementing the DOD's [Department of 
Defense] new Cyber Excepted Service Program for our civilian 
teammates. We are improving virtual training capabilities for 
all of our cyber teams, and we are building a new cyber center 
at the United States Naval Academy and offering graduate 
degrees for both officers and enlisted at the Naval 
Postgraduate School.
    Lastly, I still believe we have much room to grow. In 
particular, we need to continue to seek improvements in how we 
recruit, how we train, how we retain, how we reward, how we 
fight, all the while ensuring that our forces are equipped to 
compete and defeat the adversary.
    Mr. Chairman, Senators, thank you for the opportunity to be 
here this afternoon. I take the points from your opening 
remarks, and I look forward to answering your questions.
    [The prepared statement of Admiral Gilday follows:]

          Prepared Statement by Vice Admiral Michael M. Gilday
    Chairman Rounds, Ranking Member Nelson and distinguished members of 
the Subcommittee, thank you for your continued support of the men and 
women of U.S. Fleet Cyber Command, U.S. Tenth Fleet, and the United 
States Navy. It is an honor and privilege to represent the outstanding 
sailors and civilians who comprise our U.S. Fleet Cyber/U.S. Tenth 
Fleet team, and I appreciate this opportunity to update you on how our 
Navy's cyberspace operations are evolving to remain competitive in 
today's strategic environment.
    As discussed by the National Defense Strategy, great-power 
competition has reemerged as the central challenge to U.S. security and 
prosperity. It will probably come as no surprise to this committee that 
our adversaries often act within the ``gray zone,'' heavily relying on 
asymmetric methods such as cyberspace and information operations to 
undermine our national interests.
    Over the past four years, as the Commander of U.S. Fleet Cyber 
Command and as the former Director of Operations for U.S. Cyber 
Command, I have observed first-hand how the United States is threatened 
by cyber-attacks every day; the threat to the U.S. Navy is certainly no 
different. Our ability to command and control our forces relies upon 
cyberspace. Virtually every operation aboard a Navy ship-navigation, 
engineering, communications and weapons employment--rests on the secure 
and reliable transfer of and confidence in our data. Operating in the 
maritime environment does not shield us from the threats inside of the 
cyberspace domain, and our competitors know this. The cyberspace domain 
is a great capability leveler due to the low cost of entry for 
adversaries who desire to achieve an effect against us. With 
interconnectedness and pervasiveness increasing due to the Internet of 
Things, this environment will only become more complex and contested.
    Beyond today's threats, our current technological advantages are 
not preordained. We are in an unprecedented age of exponentially 
accelerating technology and a convergence of technologies that brings 
dynamic and innovative capabilities. The technological race is on for 
Artificial Intelligence, Machine Learning and Quantum Computing as the 
world's most powerful militaries strive to become the leader in these 
areas. Maintaining our role as a global superpower requires us to 
develop and evolve our cyber capabilities quickly to dominate in this 
technologically advanced environment.
    In the same fashion that the historic U.S. Tenth Fleet from World 
War II enabled the prosecution of the U-Boat threat and ensured access 
to the shipping lanes of the Atlantic, U.S. Fleet Cyber Command and the 
modern U.S. Tenth Fleet exists today to enable, anticipate and 
prosecute cyberspace threats and ensure our Navy networks supporting 
our most critical missions are protected and ready.
    Since its establishment on January 29, 2010, U.S. Fleet cyber 
Command [U.S. Tenth Fleet has grown into an operational force comprised 
of more than 16,000 Active Duty sailors, Reserve component sailors and 
civilians assigned to 29 Active Duty and 29 Reserve commands around the 
globe. U.S. Fleet Cyber Command reports directly to the Chief of Naval 
Operations as an Echelon II command and is responsible for operating 
and securing Navy Enterprise networks, defending all Navy networks, 
operating our global telecommunications architecture, and providing 
cryptology, signals intelligence (SIGINT), cyberspace, and space 
warfighting capabilities to support Fleet Commanders and Combatant 
Commanders. With distinct, but overlapping mission sets, U.S. Fleet 
Cyber Command serves as the Navy Component Command to U.S. Cyber 
Command for cyberspace operations, the Navy's Service Cryptologic 
Component Commander under the National Security Agency/Central Security 
Service and the Navy's component for space under U.S. Strategic 
Command.
    Headquartered in Fort Meade, Maryland., U.S. Fleet Cyber Command 
exercises operational control of globally-deployed Cyber Mission Forces 
(CMF) through a task force structure aligned to the U.S. Tenth Fleet. 
U.S. Fleet Cyber Command is also designated as the Joint Force 
Headquarters-Cyber aligned to U.S. Pacific Command and U.S. Southern 
Command for the development, oversight, planning and execution of full 
spectrum cyberspace operations aligned with other traditional 
warfighting lines of operations.
    In 2015, U.S. Fleet Cyber Command released its Strategic Plan: 2015 
to 2020, which identified five goals critical to deliver on our 
responsibilities by leveraging our strengths and shrinking the Navy's 
cyber-attack surface to cyber adversaries, which I will detail 
throughout this statement. Across the wide-ranging responsibilities, 
our five goals are:

    l.  Operate the Network as a Warfighting Platform: Defend Navy 
networks, communications and space systems, ensure availability and, 
when necessary, fight through them to achieve operational objectives.
    2.  Conduct Tailored Signals Intelligence: Meet the evolving SIGINT 
needs of Navy commands, including intelligence support to cyber.
    3.  Deliver Warfighting Effects Through Cyberspace: Advance our 
effects delivery capabilities to support a full spectrum of operations, 
including cyber, electromagnetic maneuver, and information operations.
    4.  Create Shared Cyber Situational Awareness: Create a shareable 
cyber common operating picture that evolves to full, immediate 
awareness of our network and everything that happens on it.
    5.  Establish and mature Navy's Cyber Mission Forces: Stand up 40 
highly expert CMF Teams and plan for the sustainability of these teams 
over time.

    We, the Navy and U.S. Fleet Cyber Command/U.S. Tenth Fleet, have 
made significant progress towards these goals, continue to develop 
organizationally and evolve to outpace competitors. On behalf of the 
warfighters of U.S. Fleet Cyber Command, I thank you again for 
opportunity to discuss the Navy's progress in cyberspace and our course 
ahead.
             operate the network as a warfighting platform
    The Navy, like other DOD and government entities, faces enormous 
challenges in cyberspace. Foreign governments and non-state actors use 
cyberspace operations as an integral part of their national and 
military strategies. Adversaries take advantage of publicly available 
cyber tools so nefarious actors can quickly identify vulnerabilities in 
software and hardware to exploit high priority targets.
    In May 2017, a cyber-attack known as WannaCry spread ransomware 
rapidly and indiscriminately across the world. The malware encrypted 
and rendered useless hundreds of thousands of computers in hospitals, 
schools, homes, and businesses in over 150 countries. In June 2017, 
numerous commercial ships transiting coastal waters in the Black Sea 
reported having their GPS systems ``spoofed,'' so that their locations 
were reported inside Russian territorial waters, as opposed to being in 
international waters.
    These examples demonstrate we operate in an increasingly contested 
cyber environment where information is the fuel of decision making and 
protecting that information and our mechanisms for Assured Command and 
Control (C2) are critical to successful maritime operations. Loss of 
this information, or lack of confidence in the veracity of the 
information we see, not only degrades our confidence and effectiveness 
of our C2, it also leads to loss of intellectual property and removes 
our competitive edge. The margins of victory are razor thin, and we 
cannot afford to lose a step.
    U.S. Fleet Cyber Command/U.S. Tenth Fleet approach to overarching 
cyber defense is consistent with U.S. Fleet Forces Command's Fleet 
Design and the Chief of Naval Operation's plan for a Future Navy, with 
more innovation across the Fleet. The networks upon which the Navy 
depends to conduct its missions and fight effectively are presently 
under continuous probing, if not outright attack by determined 
adversaries. Simply put, any system with embedded information 
technology or networking capability is a target for an adversary. 
Technology is increasingly moving in the direction of everything 
defaulting to being networked so this environment will continue to 
increase in complexity and pose challenges to our operations.
    U.S. Fleet Cyber Command directs operations to secure, operate, and 
defend Navy networks, which currently consists of more than 500,000 end 
user devices; an estimated 75,000 network devices (e.g., routers, 
servers); and approximately 45,000 applications and systems across 
multiple security enclaves. These systems are comprised of information 
technology, combat and operational technology and control systems. I 
can most succinctly capture our approach to cybersecurity by stating 
the Navy operates all of its networks as warfighting platforms. As a 
warfighting platform it must be aggressively defended from intrusion, 
exploitation and attack. As a warfighting platform, the network must be 
agile, resilient, and responsive to the C2, intelligence, logistics, 
and combat support functions that depend upon it. As a warfighting 
platform, its configuration must also be precisely maintained. It must 
be resilient to attack and allow us to ``fight through the hurt.'' 
Finally, as a warfighting platform, it must be capable of and available 
to deliver warfighting effects in support of Combatant Commander 
operational priorities.
    Reflective of the larger culture, the demand for seamless 
connectivity continues to grow, and solutions to visualize and protect 
this operational key terrain must keep pace. The Fleet must have trust 
and confidence in its networks, systems and data, and the information 
and knowledge they present. Failure to adequately protect and assure 
our Fleet networks would be detrimental to our maritime operational 
capability and warfighting effectiveness. Therefore, the importance of 
a secure architecture for Navy networks cannot be overemphasized. Our 
Systems Commands, Program Executive Offices (PEOs) and government 
research centers play a pivotal role in design and acquisition of our 
systems. Their focused R&D efforts of secure, resilient architectures 
and systems, reinforced by industry and academia best practices, are 
needed to ensure we are investing in the right systems, technologies 
and methodologies to provide a resilient information environment that 
can be operated and maintained by our personnel. Effective systems 
engineering also highlights the importance of ensuring our 
cybersecurity processes are intertwined with our network capabilities 
so we can maintain proper cybersecurity controls. Designing, 
developing, testing and fielding systems resilient to cyber 
exploitation is a key step in this. As the Navy Authorizing Official 
(NAO), we serve as a the oversight authority through utilization of the 
DOD Risk Management Framework to ensure new systems include the proper 
cybersecurity controls and identification of risk on our networks from 
design through fielding, and most importantly throughout their 
operating lifecycle.
    Additionally, U.S. Fleet Cyber Command is operationally focused on 
continuously improving the Navy's cyber security posture through an 
emphasis on the combination of people, process and technology. This 
allows us to reduce the network intrusion attack surface, implement and 
operate layered defense in depth capabilities, and expand the Navy's 
cyberspace situational awareness as outlined below.
Reducing the network intrusion attack surface
    Opportunities for malicious actors to gain access to our networks 
come from a variety of sources such as known and zero-day cyber 
security vulnerabilities, poor user behavior, and supply chain 
vulnerabilities. Operationally, we think of these opportunities in 
terms of the network intrusion attack surface presented to malicious 
cyber actors. The greater the size of the attack surface, the greater 
the risk to the Navy mission. The attack surface grows larger with 
aging operating systems and when security patches to known 
vulnerabilities cannot be rapidly deployed across our networks, 
systems, and applications.
    The Navy is taking positive steps in each of these areas to reduce 
the network intrusion attack surface including enhanced cyber awareness 
training for all hands, enhancements to how we monitor our networks for 
compliance and vulnerabilities, reducing the time to field patches and 
fixes, and improving the process on how we inspect the cyber readiness 
of our networks.
    An example of an innovative approach to reducing our attack surface 
is our Continuous Hardening and Monitoring Program (CHaMP) initiative. 
CHaMP brings together current and historical information from all 
sources, Navy attack surfaces and network operations to focus our 
network and operational system hardening and remediation efforts. The 
program aims to include continuous machine-assisted assessments of Navy 
commands' vulnerability management compliance, Information Assurance 
accreditation status, and network owner responsiveness in securing 
their networks. Based on threat indicators and command performance 
relative to Navy and DOD cybersecurity standards, the CHaMP program 
will be used to prioritize the assignment and deployment of our Navy 
Blue Team and other cybersecurity response activities.
    Furthermore, we are bolstering our ability to manage cyber security 
risks in our networks by closely integrating our access and authorized 
activities with operations and risk-based inspections. This allows us 
greater understanding of IT challenges and configuration management 
processes. Through our work with industry partners and academia we are 
exploring ways to utilize data analytics, machine learning, and other 
automation technologies to do some of the cybersecurity heavy lifting 
that will bring our defensive posture to the next level.
    Additionally, the Navy is reducing the attack surface with 
significant investments and consolidation of our ashore and afloat 
networks with modernization upgrades.
    The Navy's Next Generation Enterprise Network-Recompete (NGEN-R) is 
an evolution building on the successes of the current ashore enterprise 
contracts (Navy Marine Corps Intranet and OCONUS Network (ONENET)). By 
incorporating lessons-learned from Operation Rolling Tide in 2013, a 
large-scale network maneuver and operation to eradicate an adversary 
from the Navy's unclassified network, and combining our overseas and 
CONUS shore enterprise networks under NGEN-R we can improve situational 
awareness, and our ability to C2, and operate and defend Navy networks. 
The enhanced situational awareness capability of NGEN-R will enable our 
headquarters and network defense forces to make better informed network 
operational decisions, and improve speed and agility to maneuver our 
networks for maximum effectiveness.
    Often times, people are viewed as the largest vulnerability in this 
equation--by that same logic, our people, each and every person 
touching a keyboard, can make the network stronger. We believe a Navy 
cyber defense is an all hands effort like damage control on a ship. Our 
entire Navy needs cyber training but not everyone requires the same 
level of instruction. So we have developed tailored cyber training for 
our cyberspace workforce, leaders, average users and those who require 
escalated privileges. All Navy personnel are required to complete 
online cybersecurity awareness training upon hiring or accession, with 
an annual refresher. For the cyberspace workforce, the Navy is 
providing training that enables them to effectively conduct cyber 
offensive and defensive operations. Like other warfighting lines of 
operation? cyberspace operations training is also being delivered to an 
increasing number of officers via their professional military 
education, as well as in undergraduate and graduate school curriculum. 
The Navy addressed the need to integrate cyber training in other 
leadership development courses as well throughout the ranks. Finally, 
systems and operational commands identified enhanced users who require 
specialized cybersecurity training based on the roles they perform. For 
example, certain engineers at the systems commands will receive 
cybersecurity training so they are able to build better defend their 
unique networks and systems. Some of this training is already underway. 
An example of an operational enhanced user would be select shipboard 
technicians trained to recognize cyber threats to their operational 
technology/industrial control systems and recover them from attacks 
against those systems.
Enhance our Defense in Depth Operations
    The Navy is working closely with U.S. Cyber Command, NSA/CSS, our 
Cyber Service counterparts, DISA, Inter-Agency partners, and commercial 
cyber security providers to enhance our cyber defensive capabilities on 
all of our networks through layered sensors and countermeasures 
including the interface with the public internet on our unclassified 
networks down to the individual computers that make up our Navy 
networked environments. Key to this is our ability to detect and react 
to adversary activity and restore capability quickly. These defensive 
measures are informed by all source intelligence and industry cyber 
security products combined with knowledge gained from analysis of our 
own network sensor data. As information sharing improves, so does the 
shared responsibility for mutual defense.
    From the long-haul communications that form our wide area network 
backbones to software and infrastructure purchased as a service such as 
commercial cloud, we are dependent upon commercial industry and share 
our cybersecurity responsibilities in partnership with them. While the 
rise of dual-use technology has created vulnerabilities, it has also 
created opportunities for us. Many of our challenges are not unique to 
the .mil domain and are shared by commercial industry. We fend off the 
same cast of adversaries, who are using the same tactics, techniques 
and procedures within .edu, .gov and .com domains. We work similarly to 
reduce the attack surface by applying countermeasures and patching 
known vulnerabilities on the same types of network infrastructure. 
Industry is and will remain a critical mission partner through 
technology development, sharing lessons learned, sharing risks, and 
responsible intelligence sharing.
    As industry evolves capabilities we can employ, we include those in 
our overall architecture, and we are currently piloting and deploying 
new sensor capabilities to improve our ability to detect and respond to 
adversary activity as early as possible. In the future, we see industry 
advances in the fields of Artificial Intelligence (Al) and machine 
learning will allow us to continually improve the tools we employ on 
our networks to enable a more predictive and automated cyber defensive 
environment. It's a fast paced fight. We need to respond faster than 
the adversary and envision automation as the means to outpace the 
threat. This includes increasing the diversity of sensors on our 
networks, moving beyond strictly signature-based capabilities to 
behavioral sensing, and improving our ability to proactively detect new 
and unknown malware. We need these tools to help us sense what is 
``normal'' and detect what activity on the network is just outside 
that, so we can act quickly. Capable adversaries will operate at or 
below the ``noise level'' so using the advanced analytics enabled by Al 
and machine learning will give us a tactical advantage in identifying 
malicious activity early. We are working with partners to investigate 
the best way to use these data science technologies for mission 
assurance.
    At the tactical edge, 17 of our 20 Cyber Protection Teams are 
deployed around the globe today as well as five afloat Defensive 
Cyberspace Operations (DCO) teams deployed within our Carrier Strike 
Groups and Amphibious Ready Groups. We are leveraging big data 
analytics, as well as machine learning to improve our ability to 
protect that data in our networks. We also work closely with our Navy 
systems commands (SYSCOM) , such as Naval Sea Systems Command (NAVSEA), 
Naval Air Systems Command (NAVAIR), and Space and Naval Warfare Systems 
Command (SPAWAR), for example, in order to protect our weapon systems 
and platforms from cyber-attacks. Each of the Navy systems commands 
provides full life-cycle support for a specific category of military 
hardware or software, including research and development, design, 
procurement, testing, repair, and in-service engineering and logistics 
support. Our partnerships with the SYSCOMS help to expand our 
cyberspace situational awareness and protecting our assets effectively.
    The Navy continues to support the spirit and intent of the Joint 
Information Environment (JIE), including the implementation of a Single 
Security Architecture (SSA) that begins with the Joint Regional 
Security Stacks (JRSS). The Navy and Marine Corps Intranet is our 
primary onramp into JIE, including incorporating JIE technical 
standards into the acquisition of the Navy Enterprise Networks as those 
standards are defined. In parallel, the Navy is setting internal 
technical standards for implementation of a Defense in Depth functional 
architecture across all our systems commands and networks, afloat and 
ashore--from standard desktop services to combat systems and industrial 
control systems. Additionally, the Navy is well into the transition 
along with the rest of DOD to the Risk Management Framework, which is 
drawn from a solid basis using National Institute of Standards and 
Technology practices. This is significant as it moves us from an 
antiquated compliance focus perspective to one of risk focus informed 
by intelligence, providing improved cybersecurity, a concept we are 
applying to all of our networks IT, industrial controls and Combat 
Systems. Most importantly, we are integrating ways to better understand 
operational cybersecurity risk and defensive posture throughout an 
information system's life cycle. Operations in cyberspace are highly 
dynamic; we can only achieve a truly defensible architecture by 
investing in automation of the collection, integration, and 
presentation of data built in from the beginning as an integral part of 
each system. These actions will help us to truly build cybersecurity 
and resilience in initial system design and development and avoid the 
pitfalls associated with trying to bolt them on at the end. Continuous 
monitoring is critical to our understanding of how consistently our 
systems are properly configured in accordance with standards. Only then 
can operational commanders make cyber maneuver decisions with 
confidence that they will deliver the intended results.
    JRSS will become part of our future defense in depth capabilities. 
As described above, the Navy has already consolidated our networks 
behind defensive sensors and countermeasures. We expect that JRSS v2.0 
will be the first increment connected to the Navy Enterprise Networks. 
Accordingly, the Department of Navy is planning to consolidate under 
JRSS 2.0 as part of the technical refresh cycle for NMCI when JRSS 
meets or exceeds existing Navy capabilities. Integrating the Navy 
Enterprise Network with the JRSS will allow shared visibility into the 
boundary capabilities for Navy and DOD.
    As we make improvements in our monitoring of Navy networks, we will 
continue to feed that operational picture into the JIE joint 
environment to ensure shared situational awareness across DOD of the 
Navy's portion of the Department of Defense Information Networks as a 
risk to one is shared by all.
    For our part, U.S. Fleet Cyber Command is operationally focused on 
continuously improving the Navy's cyber security posture by reducing 
the network intrusion attack surface, implementing and operating 
layered defense in depth capabilities, and expanding the Navy's 
cyberspace situational awareness.
Create Cyber Situational Awareness
    Just like any other domain, success in cyberspace requires 
awareness of both ourselves and our enemies. It requires that we 
constantly monitor and analyze Navy platforms within both the classic 
maritime system and global information system. The Navy continues down 
the acquisition path to expand our Navy Cyber Situational Awareness 
(NCSA) capabilities with a more robust, globally populated and mission-
tailorable Cyber Common Operating Picture (COP). A new capability under 
development called SHARKCAGE will provide us significantly improved 
analytics and speed of response by leveraging the power of machine 
learning. In parallel, we are establishing the organizational linkages 
required giving context to that pictureand our data strategy focuses on 
seamless integration with all DOD network operations, industrial 
controls, and maritime operations data. For example, we are 
collaborating with Navy Facilities Command (NAVFAC) to include sensor 
feeds from industrial control systems into our NCSA, informing 
operators of the cyber defensive status of critical infrastructure 
systems for a more holistic view for mission assurance.
              u.s. fleet cyber command operational forces
Status of the Cyber Mission Force
    The CMF has three primary missions: Defend the nation against 
national level threats, support combatant commander missions, and 
defend Department of Defense information networks.
    Navy teams are organized across existing U.S. Fleet Cyber Command 
operational commands at cryptologic centers, fleet concentration areas, 
and Fort Meade, depending upon their specific mission. Navy is 
responsible for sourcing four National Mission Teams, eight Combat 
Mission Teams, and 20 Cyber Protection Teams, and for their supporting 
teams consisting of three National Support Teams and five Combat 
Support Teams.
    Given the dynamic nature of the cyber environment, our Navy CMF 
teams have achieved and must sustain a high degree of readiness. All 40 
of the Navy-sourced CMF teams achieved Full Operational Capability 
(FOC) as of October 6th, 2017, one year ahead of the designated U.S. 
Cyber Command target. Navy CMF teams are currently actively engaged in 
cyber offensive and defensive operations globally as part of the joint 
force.
    FOC is an externally validated evaluation indicating the unit has 
met all its capability requirements and can perform its mission as 
designed. However, it is not a measure of combat readiness. Achieving 
FOC was only a waypoint as the Navy's operational need for a well-
trained and motivated cyber workforce will continue to grow in the 
coming years. Although reaching this milestone is a great 
accomplishment, the true challenge is in sustaining that high degree of 
readiness and the ability to promptly 'answer all bells' when directed 
by U.S. Cyber Command. We are meeting that readiness challenge through 
continuous execution of current operations, a robust training program 
and in ensuring our forces have the tools and infrastructure they need 
to succeed.
    Additionally, we have focused on the integration of our Fleet's 
efforts, capacity and capabilities across the Navy and Joint force. In 
my role as the Joint Force Headquarters-Cyber commander aligned to U.S. 
Pacific Command and U.S. Southern Command, this is an area where 
organizationally we have made significant progress last year.
    Our planning with U.S. Pacific Command must be robust enough to 
create cyber support plans that are integrated into their operational 
plans in the more traditional warfighting areas. This requires a staff 
that is fully embedded into the supported combatant commander processes 
while being synchronized with my main staff at the Headquarters at Fort 
Meade. As a JFHQ-C Commander, I directed an extension of my staff in 
February 2017 to integrate at U.S. Pacific Command and provide 
cyberspace planning and force employment into operations alongside 
forces from the other warfighting domains. We organized our CMF teams, 
which included three U.S. Air Force CMF teams and two U.S. Army CMF 
teams, as well as my Navy CMF teams, in Hawaii to form an interim Cyber 
Forward Element as a one-stop-shop for full spectrum cyberspace 
operations in support of U.S. Pacific Command. This extension of my 
staff provides Offensive and Defensive Cyberspace planning to PACOM 
until a permanent Cyber Operations Integrated Planning Element, or CO-
IPE, is in place. A CO-IPE, serves as the forward extensions of Joint 
Force Headquarters--DODIN and Joint Force Headquarters-Cyber. We are in 
the process of standing up three permanent CO-IPE at PACOM, SOUTHCOM 
and United States Forces Korea, working with our combatant commanders 
to project power in, from and through cyberspace. These Elements will 
also fully integrate cyberspace into battle plans, ensuring timing and 
tempo are set by the commanders for use of cyberspace effects in the 
field based on their operational scheme of maneuver.
Reserve Cyber Mission Forces
    Through ongoing mission analysis of the Navy Total Force 
Integration Strategy, we developed a Reserve CMF Integration Strategy 
that takes advantage of our 298 Reserve sailors' skill sets and 
expertise to maximize the Reservist support for full spectrum cyber 
operations. These Reservists are being brought into service through 
fiscal year 2018, and will be individually aligned to Active Duty CMF 
teams and the Joint Force Headquarters-Cyber. In this way, we can 
employ the unique skillsets our Reserve sailors bring to the fight, 
while building a cadre of highly trained personnel that can be ready 
for surge efforts now and in the future.
    As our Reserve cyber billets are fully manned and these personnel 
trained over the next few years, we will continue to assess our Reserve 
CMF Integration Strategy and adapt as necessary to develop and maintain 
an indispensably viable and sustainable Navy Reserve Force contribution 
to the CMF.
    We are also exploring relationships with academia by establishing 
reserve detachments with high-performing academic research 
institutions. For example, this past year, we have directed and 
resourced the creation of a reserve detachment (FCC/C 1 OF Det 
Pittsburgh), attached to Navy Cyber Warfare Development Group (NCWDG), 
whose mission is to better leverage the research and technology rising 
out of Carnegie Mellon University (CMU) and Software Engineering 
Institute (SEI) in Pittsburgh, PA. This was initiated to better connect 
with advances in the academic world in order to enhance our cyber 
mission force training and cyber tool development.
Recruit and Retain
    In fiscal years 2016 and 2017, the Navy met officer and enlisted 
cyber accession goals, and is on track to meet accession fiscal year 
2018 goals in May of 2018. Currently authorized special and incentive 
pays, such as the Enlistment Bonus, should provide adequate stimulus to 
continue achieving enlisted accession mission, but the Navy will 
continue to evaluate their effectiveness as the cyber mission grows.
    Today, Navy Cyber Mission Force (CMF) enlisted ratings (CTI, CTN, 
CTR, IS, IT) are meeting retention goals. Sailors in the most critical 
skill sets are eligible for Selective Reenlistment Bonus (SRB). SR-B 
contributes significantly to retaining our most talented sailors, but 
we must closely monitor its effectiveness as the civilian job market 
continues to improve and the demand for cyber professionals increases. 
Additionally, Navy is reviewing whether additional incentives for our 
most critical skill sets, such as Interactive On-Net Operators (IONs), 
are warranted.
    Cyber-related officer communities are also meeting retention goals. 
While both Cryptologic Warfare (CW) and Information Professional (IP) 
communities experienced growth associated with increased cyber 
missions, we are retaining Officers in these communities at 93 percent 
overall. Both CW and IP are effectively-managing growth through direct 
accessions and through the lateral transfer process, thereby ensuring 
cyber-talented officers enter and continue to serve. Additionally, 
since 2011, the Navy has 40 Cyber Warfare Engineers (CWE) in the ranks, 
the Navy's direct commission program for experienced and highly 
talented cyber professionals.
    Fortunately, the Navy has had seen a sufficient quantity and 
quality of individuals via our established accession means (USNA, ROTC, 
OCS, direct commissions, etc.) for CW, IP, CWE and Cyber Warrant 
Officers (CWO) communities. Leveraging special authorities granted by 
Congress as the time is not necessary (10 U.S. Code 533(g). However, as 
the ``War for Talent'' continues due to the combination of an upward 
trending economy and an ever increasing competition for cyber 
skillsets, this authority will allow the Navy to remain competitive in 
the future as necessary.
    With respect to the civilian workforce, we currently have 91 
civilian positions within the Cyber Mission Force. Forty-seven of these 
positions are filling various work-roles throughout the CMF and the 
remaining 44 are our Computer Scientists/Tool Developers. Currently we 
have 27 of the 47 positions filled throughout CMF; we continue to 
recruit for our 44 Tool Developers and have made 17 selections to date, 
and have 12 personnel onboard. We are aggressively hiring to our 
civilian authorizations consistent with our operational needs. Our 
primary challenges in recruiting are the current compensation allowable 
and competition with industry and other DOD entities. With this in 
mind, we are currently offering various incentives to potential 
candidates which includes higher step (step 7) on the GS pay scale, 10 
percent of salary as a one-time recruitment incentive, 10 percent of 
salary for relocation expenses, and several years of assistance in 
student loan payback (5K per year). Even with these incentives, we are 
not competitive with industry or the National Security Agency (NSA), 
and we intend to increase these incentives in the near future. 
Additionally, we are optimistic that the Cyber Excepted Service 
implementation (Phase II) will help in our recruitment efforts. We plan 
to use all of the authorities available to us and hire to our Cyber 
positions, to include our JFHQ-C and CO-IPE, as expeditiously as 
possible.
    As the economy continues to improve, we expect to see more 
challenges in recruiting and retaining our cyber workforce.
Educate, Train, Maintain
    The Navy currently manages, under the Executive Agent appointment 
of the Cryptologic Training System, the Joint Cyber Analysis Course, 
which provides basic initial accession (1000-level training) skillsets 
for Cyber operations used by all services, including acting as the 
accession school for the Navy's Cryptologic Technician Networks rate. 
Further, Cyber and Information Security knowledge in accession are 
maintained in training for the Information Systems Technology rate and 
recently added basics for the Intelligence Specialist accession path. 
Officers in Cryptologic Warfare and Information Professional 
designators receive Cyber and Information Security requirements.
    As directed in the NDAA of fiscal year 2016 and in close 
consultation with U.S. Cyber Command, the Navy is on tracking towards 
to begin resourcing training for sailors assigned to its CMF in fiscal 
year 2019. As also outlined in the January 2017 Cyber Force Model 
Training Transition Plan for foundational (2000-level) training, the 
Navy is prepared to execute administrative oversight of designated 
cyber training curriculum in fiscal year 2019. Two-thousand-level 
training for Navy organic Information Systems Technicians providing 
Information Assurance and Network Security functions are in place 
through Navy channels. Similar training for Navy organic operational 
Network Defense personal is conducted on an individual basis with 
future plans to transition to a systematic approach.
    U.S. Cyber Command mandates Joint Cyberspace Training and 
Certification Standards for the CMF, which encompass procedures, 
guidelines, and qualifications for individual and collective training. 
Most of the training today is delivered by U.S. Cyber Command and the 
National Security Agency (NSA) in a federated but integrated approach 
that utilizes existing schoolhouses and sharing of resources while 
sailors are in an operational status. Through the CFMTT plan with 
resourcing, the Services will transition to providing sailors that have 
already received foundational training. CMF training specifically 
involves 54 role-specific, intermediate through advanced training 
pipelines using a mix of nearly 100 Joint, NSA National Cryptologic 
School (NCS), and multi-Service courses to prepare officers, enlisted 
and civilians for their CMF work roles. These training events are not 
only aimed at the individual sailors, but also provide operational team 
certifications and sustainment training. Once certified, our team 
training is maintained throughout the year via several key unit level 
exercise events which allow individuals and the collective team to 
demonstrate required skills against simulated adversaries. U.S. Fleet 
Cyber Command/U.S. Tenth Fleet augments the required U.S. Cyber Command 
training pipeline in two ways--online skills development and the 
provision of supplemental academics.
    Using the DOD's Enterprise Cyber Range Environment (DECRE) 
resources, provided by the Joint Staff, U.S. Fleet Cyber Command 
utilizes Joint Information Operation Range nodes (JIOR) to connect CMF 
teams with ranges which are representative of shipboard networks. These 
networks are used as offensive and defensive mission rehearsal 
platforms and to augment individual training for various team work-
roles. U.S. Fleet Cyber Command has also invested in a web-based 
individual and collective training platform, using a commercial virtual 
environment, to augment the academic portions of the U.S. Cyber Command 
training pipeline with hands-on skills development. The Persistent 
Cyber Training Environment (PCTE), managed by the Department of the 
Army, is expected to incorporate similar distributed training 
methodologies in module-based systems. When necessary, teams seek out 
and receive additional training based on work roles or specific mission 
requirements.
    From a formal educational perspective, to develop officers to 
succeed in the increasingly complex cyberspace environment, the Navy 
offers the following opportunities for cyber development:

    <bullet>  USNA: The U.S. Naval Academy offers introductory cyber 
courses for all freshman and juniors to baseline knowledge. 
Additionally, U.S. Naval Academy began a Cyber Operations major in the 
Fall of 2013. Furthermore, the Center for Cyber Security Studies 
harmonizes cyber efforts across the U.S. Naval Academy.
    <bullet>  NROTC: Our Naval Reserve Officer Training Corps' program 
maintains affiliations at 51 of the 180 NSA Centers of Academic 
Excellence at colleges around the country. Qualified and selected 
graduates can commission as Information Warfare Officers, Information 
Professional Officers, or Intelligence Officers within the Information 
Warfare Community.
    <bullet>  NPS: For graduate-level education, the Naval Postgraduate 
School offers several outstanding graduate degree programs that 
directly underpin cyberspace operations and greatly contribute to the 
development of officers and select enlisted personnel who have already 
earned a Bachelor's Degree. These degree programs include Electrical 
and Computer Engineering, Computer Science, Cyber Systems Operations, 
Network Warfare Operations and Technology, and a masters of Applied 
Cyberspace Operations.
    <bullet>  NWC: The Naval War College (NWC) is also incorporating 
cyber into its strategic and operational level war courses, at both 
intermediate and senior graduate-course levels. NWC also integrates 
strategic cyber research into focused Information Operations 10/
Cybersecurity courses, hosts a Center for Cyber Conflict Studies (C3S) 
to support wider cyber integration across the College, and has placed 
special emphasis on Cyber in its war gaming role.

    Together with U.S. Naval Information Forces, we will be realigning 
several of our operational commands to stand-up an Information Warfare 
Training Group (IWTG) later this month. This new command will advance 
IW readiness and warfighting capabilities, including Cyberspace 
Operations (CO), through training, assessments and certification 
assistance for Type Commanders in order to prepare afloat and shore 
activities to face the challenges of a dynamic threat environment.
Future Cyber Workforce Needs
    The Navy's operational need for a well-trained and motivated cyber 
workforce (Active, Reserve and civilian) will continue to grow in the 
coming years. We continue to analyze the readiness of our Cyber Mission 
Force and will adjust recruiting tools, as required.
    U.S. Fleet Cyber Command/U.S. Tenth Fleet is partnered with 
University of Maryland's ``Center for the Advanced Study of Language'' 
(CASL) in researching aptitude assessments for our cyber workforce. 
Cyber workforce screening and recruitment may be aided by the 
refinement and implementation of the Cyber Aptitude and Talent 
Assessment (CATA). The CATA will enhance screening and selection of the 
individuals best suited for specific work roles and assist with 
vectoring personnel into the work roles where they have the best 
probability of success, potentially reducing the training pipeline, 
minimizing attrition and delivering the most capable workforce. 
Assuming success with ongoing developmental efforts, we will work with 
stakeholders to identify logical injection points. (Recruiting, 
Universities, Service Academies, etc.).
Fleet Readiness
    The Navy's 2019 budget continues to prioritize readiness alongside 
the investments necessary to sustain an advantage in advanced 
technologies and weapons systems. Ensuring the cyber resiliency of 
networks is part of maintaining the readiness of warfighting platforms.
    The budget continues funding to train and equip the CMF, provides 
investments in Science and Technology and information assurance 
activities to strengthen our ability to defend the network. To maintain 
our advantage in advanced technologies and weapons, funding is provided 
for engineering to improve control points and boundary defense across 
Hull, Machinery & Electrical, Navigation and Combat Control Systems and 
for Cyber Situational Awareness.
    The Navy requested accelerated funding for procurement of Cyber 
Protection Teams (CPT) field deployable computing and analysis 
capability called Deployable Mission Support Systems (DMSS) in PB18. 
The procurement and sustainment of 40 DMSS kits is required by Navy 
Cyber Protection Teams (CPT) to conduct intensive, computationally-
heavy analysis when reach back capability is unavailable or bandwidth 
is limited. Without accelerated funding, this will reduce the number of 
full-capability DMSS kits available to Navy CPTs and delay the program 
schedule by over one year. Operationally, this will drive the need to 
share a limited number of DMSS kits for missions that may occur across 
the globe. The PB19 request builds upon this effort and will 
significantly improve operational defensive cyber capability and 
readiness. Our total inventory objective of sustained DMSS kits is 40, 
which is projected to occur by 2021.
    The Navy is requesting increased investment in Defensive Cyber 
Operations forces' ability to detect adversary activities and analyze 
cyber-attacks against Maritime Cyber Key Terrain (CKT) and to integrate 
all-source intelligence and Navy data to assess adversary capabilities. 
The goal of these investments is to improve the Navy's capacity to 
deliver to Operational Commanders, cyber situational awareness at all 
layers of the IT infrastructure and provide a cyber COP at our Fleet 
Maritime Operations Centers.
    Continued funding for training is necessary to ensure operator 
proficiency as Fleet systems are modernized and become more complex. I 
believe the Navy's ability to appropriately fund training of our 
operators in these new technologies will improve operational readiness.
Summary
    The proliferation of cyber capabilities, coupled with new 
warfighting technologies, will increase the incidence of ``gray zone'' 
operations against our Nation and our Navy. Over the past year and a 
half, we have seen information become a weapon of choice amongst our 
competitors. We view the information environment to include the domains 
of space, cyberspace and the electromagnetic spectrum, all merged 
together as key in our ability to get in front of our adversaries to 
deny them operational advantages. That invisible battle space is an 
area that we must optimize to win in the future.
    The opening rounds of the next conflict will likely be in 
cyberspace--the Navy must be ready to prevent wars as well as win them. 
Therefore, we will conduct operations in and through cyberspace, the 
electromagnetic spectrum and space to ensure Navy and Joint/Coalition 
freedom of action and decision superiority while denying the same to 
our adversaries. The Navy is closely aligned with U.S. Cyber Command, 
Combatant Commands, joint and interagency partners, and other Services 
to support a whole-of-government response to cyber threats. We will 
continue to succeed by leveraging our strengths and shrinking our 
vulnerabilities. We will win in these domains through commitment to 
excellence and by strengthening our alliances across the U.S. 
Government, Department of Defense, academia, industry, and with foreign 
partners.
    Thank you again for this opportunity to update you on the great 
work being done by the men and women of U.S. Fleet Cyber Command, U.S. 
Tenth Fleet and the U.S. Navy. I look forward to working closely with 
members of the subcommittee on cybersecurity and appreciate your 
support of the cyber investments included in the Navy's 2019 budget 
request. I'm happy to take your questions.

    Senator Rounds. Thank you, Vice Admiral Gilday.
    Major General Reynolds.

     STATEMENT OF MAJOR GENERAL LORETTA E. REYNOLDS, USMC, 
          COMMANDER, MARINE FORCES CYBERSPACE COMMAND

    Major General Reynolds. Good afternoon, Chairman Rounds, 
Ranking Member Nelson, Senator Sasse, and other members of the 
committee. On behalf of the marines, the civilians marines, and 
the families of the United States Marine Corps Forces 
Cyberspace Command, I want to thank you for your continued 
support, and I appreciate this opportunity to update you on the 
tremendous progress that we've made since I was last before you 
in May.
    I'd like to highlight what our marines are doing in the 
cyberspace domain, and how we've shifted our focus from 
building the command to operationalizing, sustaining, and 
expanding capabilities in this new domain.
    Chairman, at MARFORCYBER, I have organized operations along 
three lines of effort, and I will briefly highlight those for 
you today. I use this framework to organize my activities and 
to measure our progress.
    So, my first priority is to secure, operate, and defend the 
Marine Corps Enterprise Network, the Marine Corps portion of 
the DOD [Department of Defense] Information Network. We have 
continued to expand our definition this year of the MCEN 
[Marine Corps Enterprise Network] by including all elements of 
the Marine Corps IP [Intellectual Property] space, which 
includes our many disparate networks that are owned and managed 
by different commands across the Marine Corps. To be more 
defensible, we've collapsed domains this year, we've expanded 
our enterprise view of the network through a common service 
desk, an endpoint, discovery, and we are now--as General 
Nakasone mentioned--we are also nearing completion of upgrade 
to WIN 10 across the Marine Corps. We've also experimented with 
additional acquisition methods and models like DIUx [Defense 
Innovation Unit-Experimental] that are more responsive to the 
changing threat. We're looking forward to employing Cyber 
Command acquisition authority, when it makes sense.
    Moving forward and in response to the National Defense 
Strategy, we know we must be prepared to fight tonight, and we 
will build the objective network capable of fighting and 
winning against a peer adversary in a contested information 
environment. So, recognizing that our ability to command and 
control is our center of gravity, we are participating in 
efforts with the United States Marine Corps Service 
Headquarters to design and build a more defensible network 
architecture.
    My second priority is fulfilling our responsibility to 
provide warfighting capabilities through the development of 
ready, capable cyberforces to United States Cyber Command. I am 
happy to report that, as of January of this year, ahead of 
schedule, all of our 13 teams have reached full operational 
capability and are employed against priority missions. Many of 
our marines have participated in planning or executing 
offensive and defensive missions against today's adversaries, 
and are informing tactics and procedures on a daily basis. We 
are increasing our proficiency every day.
    Now, to increase readiness and retention, and to increase 
skills progression, sir, as you mentioned, the Marine Corps, 
just last week, announced the creation of our cyberspace 
occupational field. The creation of the MOS [Military 
Occupational Specialty] will allow us to deliberately provide 
targeted incentives for recruiting and retention. For our 
civilian marines, we are leaning into hire and transition our 
workforce to the Cyber Excepted Service. As part of our 
integrated planning element build in support of Special 
Operations Command, we have hired civilians across the SOCOM 
enterprise who are providing cyber intelligence and planning 
support for joint cyber fires.
    My third priority is to provide support to the Marine Corps 
as it works to operationalize the information environment. As 
you are aware, the Commandant has modified marine formations to 
build greater capability in the information environment under 
the Marine Corps operating concept, and we are building 
additional DCO [Deployable Cyber Force] forces inside the MAGTF 
[Marine Air-Ground Task Force], experimenting with tactical 
cyber, and sharing lessons on the integration of cyber with 
other fires and other information capabilities. As we continue 
to increase our capability and our capacity, we look forward to 
occupying our new operational headquarters on NSA's [National 
Security Agency] campus next month.
    I want to again take the opportunity to thank Congress for 
the military construction funding that enabled the development 
of our new building. This building is much more than just 
administrative spaces. It will serve as a platform for 
training, command and control, planning, and execution.
    I am incredibly proud of the strides that we have made in 
operationalizing cyberspace in support of the MAGTF and the 
joint warfighter since I was last before you in May.
    Thank you, Mr. Chairman and members of the committee, for 
inviting me to testify before you today, and for the support 
that you and this committee have provided our marines and their 
families. I look forward to continuing the dialogue and to 
answer your questions today.
    Thank you.
    [The prepared statement of General Reynolds follows:]

        Prepared Statement by Major General Loretta E. Reynolds
    Major General Reynolds was commissioned a Second Lieutenant in May 
1986 upon graduating from the United States Naval Academy. Throughout 
her career she has served in a variety of command and staff billets in 
the operating forces. As a Lieutenant, she served as a Communications 
Watch Officer at the Base Communication Center, and later returned to 
the Division Communications Company where she served as a Communication 
Center Platoon Commander, Multichannel Platoon Commander, Operations 
Officer, and Radio Officer. As a Captain and Major, she served with 
Marine Wing Communications Squadron 18, 1st Marine Aircraft Wing 
Okinawa, Japan as a Detachment Alpha Executive Officer and Commanding 
Officer. She served with the Ninth Communication Battalion, 1st 
Surveillance, Reconnaissance, and Intelligence Group as the Assistant 
Operations Officer and Commanding Officer, Bravo Company. As a 
Lieutenant Colonel, she commanded Ninth Communication Battalion, I MEF 
and deployed in support of Operation Iraqi Freedom II in Fallujah, 
Iraq. As a Colonel, she commanded I MEF Headquarters Group and deployed 
the Group to Camp Leatherneck, Afghanistan in support of I MEF FWD/
Regional Command Southwest in Helmand Province during Operation 
Enduring Freedom. She recently served as the Commanding General, Marine 
Corps Recruit Depot/Eastern Recruiting Region, Parris Island, SC.
    In the Supporting Establishment, she has served as an Acquisition 
Project Officer at the Marine Corps Systems Command, Candidate Platoon 
Commander for Charlie Company, Officer Candidate School, Commanding 
Officer of Recruiting Station Harrisburg, Pennsylvania, an Action 
Officer and Deputy Division Head for Strategic Plans Division, Command, 
Control, Communications, and Computers (C4) Department, Headquarters 
Marine Corps and as Division Chief (J6) at the Joint Staff in the 
Pentagon. Her most recent assignment was as the Principal Director 
(Asia & Pacific), Office of the Deputy Under Secretary of Defense (Asia 
& Pacific).
    Her professional military education includes the United States 
Naval Academy, The Basic School, the Basic Communication Officer's 
Course, Command and Control Systems Course, the Navy War College and 
the Army War College. She has earned Masters Degrees from both the 
Naval War College and the Army War College.
    Her personal decorations include the Defense Superior Service 
Medal, Legion of Merit, Bronze Star, Meritorious Service Medal (with 
gold star), the Navy, and Marine Corps Commendation Medal (with gold 
star).
                              introduction
    Chairman Rounds, Ranking Member Nelson, and distinguished members 
of this Committee, I thank you for inviting me here today to represent 
the Marines and civilian Marines of Marine Corps Forces Cyberspace 
Command (MARFORCYBER). I appreciate this opportunity to update you on 
the tremendous progress we have made since I was last before this 
committee in May, to highlight what your marines are doing in the 
cyberspace domain and how we have shifted our focus from building the 
command to operationalizing, sustaining, and expanding capabilities in 
this warfighting domain.
    Our Commandant, General Neller, made clear in his Message to the 
Force 2018 that the Marine Corps must be prepared to fight in order to 
make it to the next conflict. This includes our ability to fight--and 
win--in the domain of cyberspace. Our adversaries will test our 
superiority across the domains of air, land, sea, and space, in the 
next conflict. They are testing us in cyberspace today. Understanding 
this, and consistent with our Commandant's guidance, we are developing 
the Marine Corps' cyber capacity at the tactical level of war, so that 
in the future the Marine Corps will more effectively preserve the 
ability to fight and win in a contested environment and deliver effects 
in cyberspace.
    It gives me great pride to share with you today the many 
accomplishments of the Marines and civilian Marines of MARFORCYBER, and 
the work they are doing to defend our nation from a growing and 
evolving threat.
                        mission and organization
    As the Marine Corps Service component to U.S. Cyber Command, 
MARFORCYBER conducts full spectrum cyberspace operations. This includes 
securing, operating and defending the Marine Corps Enterprise Network 
(MCEN), executing DOD Information Networks (DODIN) operations, 
conducting Defensive Cyberspace Operations (DCO) within the MCEN and 
Joint Force networks, and when directed, conducting Offensive 
Cyberspace Operations (OCO) in support of Joint and Coalition Forces. 
We do this to enable freedom of action in cyberspace and across all 
warfighting domains, and to deny the same to our adversaries.
    As the Commander, MARFORCYBER, I wear two hats. I am Commander, 
MARFORCYBER, and I am the Commander of Joint Force Headquarters--Cyber 
(JFHQ-C) Marines. In these roles, I command about 1700 Marines, 
civilian Marines, and contractors across our headquarters and 
subordinate units. MARFORCYBER is comprised of a headquarters 
organization, a JFHQ-C, and two colonel led subordinate commands: 
Marine Corps Cyberspace Warfare Group (MCCYWG) and Marine Corps 
Cyberspace Operations Group (MCCOG). Through the JFHQ-C construct, we 
provide direct cyber operations support to U.S. Special Operations 
Command (USSOCOM).
    In order to accomplish our mission, I organize operations along 
three lines of effort that I will highlight for you today. I use this 
framework to organize activities, allocate resources, grow capability, 
and measure our progress.
                  secure, operate, and defend the mcen
    My first priority is to secure, operate, and defend the Marine 
Corps' portion of the DODIN, the MCEN. We have continued to expand our 
definition of the MCEN by including all elements of the Commandant of 
the Marine Corps' IP space, which includes our many disparate networks 
that are owned and managed by different commands across the Marine 
Corps.
    We accomplish this mainly through one of the two subordinate 
commands mentioned previously--the MCCOG. The MCCOG is responsible for 
directing global network operations and computer network defense of the 
MCEN. It executes DODIN Operations and DCO in order to assure freedom 
of action in cyberspace and across warfighting domains, while denying 
the efforts of adversaries to degrade or disrupt our command and 
control.
    With the increasing pace of operations in the cyberspace domain, 
the MCCOG, our primary DODIN and Cyber Security Services Provider 
(CSSP), was designated an operational Command in December 2016. 
Internally, the MCCOG is re-organizing to more effectively fight in a 
high tempo environment and to better align to its operational command 
designation. Their reorganization will be complete this April.
    Simultaneous with its designation, in August 2017, the MCCOG stood 
a Defense Information Systems Agency (DISA) mandated Command Cyber 
Readiness Inspection (CCRI) and a pilot Command Cyber Operational 
Readiness Inspection (CCORI), successfully passing both inspections and 
maintaining its certification as the Marine Corps' only CSSP. 
Additionally, during this same timeframe, MCCOG's Marine Corps 
Information Assurance Red Team (MCIART), the team responsible for 
assuming an adversarial role and testing our layered defenses across 
the Marine Corps, was recertified by the National Security Agency 
(NSA).
    The Marine Corps views the MCEN as a warfighting platform, which we 
must aggressively defend from intrusion, exploitation, and attack. 
Recent real-world defensive cyberspace operations have informed and 
sharpened our ability to detect and eliminate threats on the MCEN. The 
operational posture to address vulnerabilities is critical as exploits 
are identified by USCYBERCOM or through adversary action. Recent 
operational successes include the replacement of more than 200 Virtual 
Private Network (VPN) Devices across more than 120 distinct sites in 
less than a 90 day period. In addition, recent real-world operations, 
such as responding to destructive and malicious global ransomware 
(WannaCry) and wiperware (Petya/NotPetya) events, have improved our 
ability to aggressively and successfully compress patching timelines 
and enhance our defenses in order to avoid exploitation.
    While the MCCOG maintains a persistent capability to defend the 
Marine Corps' cyber battlespace, MARFORCYBER is continuously seeking 
methods to enhance the Service's defenses. Beginning in December, 
MARFORCYBER began augmenting the MCCOG's capability with other rapid 
and persistent defensive cyber resources that can quickly identify a 
threat, defend an area, eject adversaries, and recover from malicious 
activity. Though actively engaging an adversary in our battlespace is 
critical, securing the battlespace from attack is our first line of 
defense. Understanding this, we have adopted a philosophy of ruthless 
compliance with security measures across all elements of the MCEN. We 
are using every security action to increase our partnerships with other 
MARFORs and major subordinate commands to exercise command and control, 
and increase their understanding of the constant threat our adversaries 
pose in cyberspace. Cybersecurity is a team effort and it requires 
everyone to be engaged. We rely on the buy-in from our partners to 
ensure that the MCEN is properly protected.
    We have improved network visibility and security by consolidating 
our legacy systems into a single homogeneous network. Consolidating 
domains reduces attack surfaces and improves our ability to identify 
and respond to threats. We are aggressively consolidating legacy 
domains, transitioning to the WIN 10--operating system, and collapsing 
regional service desks to a single enterprise service desk. Our updates 
to each of these priorities are described briefly below.
    Enterprise Service Desk. Since May, MARFORCYBER has been replacing 
regional service desks with a centralized, standardized Enterprise 
Service Desk (ESD) in Kansas City, Missouri to manage and monitor the 
MCEN, provide valuable insight regarding network trends, and rapidly 
respond to warfighter needs. The ESD is under the operational control 
of MARFORCYBER. While consolidation is not yet complete, the ESD has 
provided the anticipated benefits of improved service and network 
visibility, complementing other defensive actions on the MCEN. Our next 
step is to establish the Alternate ESD in New Orleans, and procure the 
equipment for both ESD locations. The fiscal year 2019 President's 
Budget requests the funding to continue to stand up the ESD.
    Domain Consolidation and Elimination (DC&E). We are continue 
efforts to collapse legacy networks into a single, homogenous and 
secure network. Legacy networks increase the Marine Corps' cyber 
footprint and unnecessarily increase attack surfaces for adversaries. 
Eliminating these networks and consolidating them within the MCEN will 
provide much needed standardization, increase network visibility, and 
decrease the attack surface available to our adversaries. Out of 52 
legacy domains, only 18 remain to be decommissioned. The largest 
program of record requiring migration is the Marine Corps Enterprise 
Information Technology Services (MCEITS), a system that provides 
collaboration, data exchange, and information access. Planning is 
underway to migrate MCIETS onto MCEN-N. We anticipate completing our 
DC&E efforts by September of 2019 however, additional actions are 
required to consolidate legacy networks onto the MCEN such as migrating 
public-facing webservers into demilitarized zones, consolidating data 
centers, and conducting Enterprise Infrastructure Modernization (EIM).
    We are also participating in joint efforts to secure our networks, 
most notably by integrating into the Join Information Environment 
(JIE). Through JIE, the Marine Corps will install Multiprotocol Label 
Switching as part of the Joint Regional Security Stack (JRSS) project 
and will standardize transport while improving security. In addition, 
the Marine Corps continues working with Joint Force Headquarters----DOD 
Information Networks (JFHQ-DODIN) to modernize infrastructure and 
comply with standards that protect our public-facing systems to reduce 
unnecessary and outdated public facing system, and harden and PKI-
enable the remaining. Upgrades to the equipment and standards that 
safeguard our public-facing websites are underway to ensure we remain 
connected to the general public and industry while maintaining the 
latest in cybersecurity protections.
    Windows 10. The Marine Corps continues its efforts to transition 
its Microsoft Windows end user devices to the Windows 10 (WIN 10) 
operating system (OS), effecting well over 100,000 devices on the 
unclassified network alone. In order to accomplish this task, 
MARFORCYBER exercised command and control relationships with Tier III 
Commanders and MARFORs to synchronize effort and resources, engage 
commanders across the force, and track progress. The Service leadership 
has supported our efforts; and we have been providing periodic updates 
on progress and compliance to the Assistant Commandant of the Marine 
Corps. Our WIN 10 transition is currently on plan to meet 31 March 
deadline established by DOD.
    Cyber is a dynamic, competitive environment, and we are continually 
responding to the increasing capability and capacity of our 
adversaries. We are improving our ability to understand system data and 
identify vulnerabilities. Through participation in various joint 
exercises, we continuously affirm that treating cyberspace as a 
contested warfighting domain is essential to our ability to rapidly 
identify and defeat an adversary. During Exercise Pacific Sentry, a 
bilateral exercise led by U.S. Pacific Command and linked to U.S. 
Strategic Command and USCYBERCOM headquarters' exercises, we identified 
several key stakeholders and owners of Marine Corps information 
repositories who must aggressively defend themselves in cyberspace in 
order to provide essential, service level activities. Our experience 
during real-world operations and training exercises has demonstrated 
that many commands and processes within the Service that have 
historically been considered administrative in nature must 
operationalize in order to function in a contested cyberspace domain. 
For example, our partners in cybersecurity inside the Service include 
acquisition commands and data owners. In cyberspace, the Supporting 
Establishment must respond with the same readiness and agility as the 
warfighting element.
    Moving forward, and in response to the National Defense Strategy, 
we must build the objective network capable of fighting and winning 
against a peer adversary. We are participating in efforts to shape our 
battlespace within the Service by designing a more defensible 
architecture. The Objective Network is a service-level capability that 
spans all war-fighting functions and enables operations across all 
domains. The Objective Network must be deployable and resilient to 
support command and control functions throughout the Marine Air Ground 
Task Force (MAGTF) in a contested, disconnected, intermittent, and low 
bandwidth environment. To operate in this environment, the network must 
adapt to conditions and optimize performance, while reducing detection 
and vulnerabilities.
    The objective network is essential to ``make sense'' of the 
cognitive domain, where enterprise and local resources feed critical 
thinking to drive commander's decision-making and enable information 
operations. Artificial Intelligence (Al) is the core element in 
accomplishing this in near-real time. An interconnected family of MAGTF 
Al systems share priorities, monitor the network, learn patterns, and 
inform human decision making. This enables Al to manage hardware and 
software components, route network traffic, and reduce the 
electromagnetic footprint. The result is a resilient command and 
control network that supports the warfighter even in the most austere 
environments.
              provide a cyberspace warfighting capability
    My second priority supports our responsibility to provide ready, 
capable cyber forces to USCYBERCOM's cyber Mission Force.
    The Marine Corps is responsible for 13 of USCYBERCOM's 133 Cyber 
Mission Force (CMF) teams: one National Mission Team (NMT), eight Cyber 
Protection Teams (CPTs), three Combat Mission Teams (CMT), and one 
Cyber Support Team (CST). These 13 teams are aligned against USCYBERCOM 
(Cyber National Mission Force), USSOCOM, and Marine corps missions.
    Three of the eight CPTs are service retained and oriented to 
service missions, (23 percent of the total Marine corps CMF).
    I am happy to report that, as of January 2018 and ahead of 
schedule, all of our 13 teams have reached FOC. All teams are fully 
engaged in supporting the mission. Although we have met FOC criteria, 
our work is not done. We have shifted our focus toward sustaining and 
improving our team readiness.
    To increase readiness, improve effectiveness, and address retention 
of cyberspace operators, the Marine Corps recently established a 
Cyberspace Occupational Field. We have learned a great deal in the past 
several years about the training, clearance, and experience 
requirements across the cyber mission force. We know that in order to 
be effective, we must retain a professional cadre of cyberspace 
warriors who are skilled in critical work roles, and we know that many 
of our marines desired to remain part of the cyber work force. We 
intend to begin assigning marines to the cyberspace MOS on 1 October 
2018. This will significantly improve both readiness and retention of 
the cyber force, and allow us to develop their skills throughout their 
careers.
    I would like to thank Congress for authorizing the Marine Corps to 
grow its structure by 1,000 earlier this year to 185,000. Our growth in 
cyber is consistent with the Commandant of the Marine Corps' request to 
expand our ability to operate in the Information Environment and build 
capabilities that allow the Marine Corps' to increase its emphasis on 
maneuver in a cognitive sense, expanding our employment of combined 
arms to the domains of cyberspace.
    The MCCYWG is our colonel led command that is responsible for 
identifying capability requirements, training, certifying, and 
sustaining readiness for our CMF teams. While they are currently 
minimally staffed, my vision for this command is to develop it into the 
centerpiece for advanced cyber warfare training, tactics, and 
certifications to support Marine Corps cyber forces. The Commandant of 
the Marine Corps recently approved growth for the MCCYWG to enable this 
vision in support ofjoint CMF and Marine Corps cyber units.
    While building the CMF, members of the MARFORCYBER staff were dual-
hatted as the Joint Force Headquarters staff. This year, the increasing 
pace of cyberspace operations demanded that we resource a separate, 
standing JFHQ-C. This JFHQ-C provides planning, targeting, and 
intelligence support to supported commanders, synchronizes execution of 
cyberspace operations, and provides command and control for CMTs and 
CST.
    In May I updated you regarding the development of the Joint Force 
Headquarters--Forward, which was intended to integrate cyberspace 
operations with USSOCOM's global operations. Since then, the Secretary 
of Defense, through USCYBERCOM, instructed all Service Cyber Components 
to rename this organization the Cyberspace Operations--Integrated 
Planning Element (CO-IPE) and to complete an implementation plan no 
later than March of this year. We have been working through both 
USCYBERCOM and USSOCOM to identify and satisfy requirements in the most 
efficient manner possible.
    In addition to the five marines already at USSOCOM headquarters, we 
begun to build the COIPE across USSOCOM organizations worldwide and 
look to complete the civilian hiring for a total 26 civilians by 
October of this year. We have also been working within the Service to 
increase our uniformed CO-IPE staff, with an increase of 13 marines 
required to meet our staffing goal by the end of fiscal year 2020.
    As with all other domains, the marines continue to be ``First to 
Fight'' in cyberspace. Our CMTs working in support of Joint Task Force 
Ares have conducted multiple, large-scale operations to support U.S. 
Central Command (USCENTCOM) and Combined Joint Task Force--Operation 
Inherent Resolve. We have also expanded our support beyond the CMTs to 
include cyberspace operations planners working at multiple locations 
both overseas and here at home with partner organizations. I currently 
have numerous marines deployed to locations in both USCENTCOM and 
USAFRICOM, planning and integrating cyberspace operations into ongoing 
activities. We are also working within the Service to integrate 
cyberspace effects and planning into other domains. We recently 
deployed a Marine cyberspace planner to Afghanistan to assist the 
marines in Helmand Province as Task Force South West executes their 
advise and assist mission with our Afghan partners. Through my deployed 
personnel, we are bringing cyberspace operations to the tactical edge 
of battle, while at the same time generating cyberspace experience and 
expertise within operational units outside of USCYBERCOM. These 
experiences will allow operational planners to adapt the emerging 
cyberspace capabilities in such a way that we can incorporate 
cyberspace operations at all levels of conflict across the full range 
of military operations.
    We continue to improve on the Marine Corps' investment in 
specialized tools for defensive cyberspace operations. The Deployable 
Mission Support System (DMSS) hardware and software tools comprise the 
weapons system CPTs use to meet any mission they may be assigned, from 
readiness and compliance visits to incident response or Quick Reaction 
Force missions. The DMSS toolkit evolves with the threat and is 
continually revised and upgraded to ensure CPTs have the most up-to-
date toolkit available for a dynamic cyberspace operations mission set. 
MARFORCYBER is also working to develop a DMSS-like toolkit for 
employment by the Service's Defensive Cyber Operations--Internal 
Defensive Maneuver (DCO-IDM) Companies, which will provide an organic 
defensive cyberspace capability to Marine Expeditionary Force (MEF) 
Commanders within the newly established MEF Information Groups (MIG). 
MARFORCYBER is currently finalizing the engineering and procurement of 
third generation DMSS 3.0 kits, the first of which is scheduled to be 
delivered in late fiscal year 2018. Revisions in version 3.0 include: 
reduction in overall size of the system to allow for increased 
transportability on commercial flights, updated suite configuration to 
allow for split-based operations, leveraging reach-back capability to 
shared resources at a central location. We are working within the 
budget to address associated sustainment and operational support 
infrastructure.
    We have established relevant operational capability in support of 
the warfighter and continue to experience consistent growth in 
operational capability and ability to deliver cyberspace effects.
               operationalize the information environment
    My third priority is to add cyberspace warfighting expertise to the 
MAGTF and to enable operations in the Information Environment. Since 
our establishment in 2009, our marines and civilians have implicitly 
understood the need to provide a high return on the Marine Corps' 
investment in cyber.
    The Marine Corps Operating Concept (MOC) describes a future 
operating environment where marines will fight with and for 
information, engage in a battle of signatures and be required to 
maneuver throughout networks even as we design networks that are 
maneuverable themselves. Last year, the Marine Corps developed a new 
force design to meet the needs of the MOC. This effort, called Force 
2025, includes a DCO-IDM company and electronic warfare company for 
each MEF within the MIG. The DCO companies will provide MAGTF 
commanders with a trained and organized capability to conduct 
activities as maneuver elements for deployed networks, data stores and 
weapons system. As an element of the aforementioned MEF Information 
Group (MIG), the DCO-IDM Companies will support the defense of MAGTF 
key terrain in cyberspace and maintain a commander's ability to command 
and control. Their primary function will be mission assurance actions 
such, as actively hunting for advanced internal threats that evade 
routine security measures, performing incident response actions, and 
performing digital forensics.
    MARFORCYBER continues to lead the DCO-IDM Training Pilot Program, 
which will inform the DCO-IDM Company concept of employment. We 
recently hosted DCO-IDM Training at MARFORCYBER, which included command 
leadership from all three MIGs as well as members of the DCO-IDM 
Companies. The pilot training included hands on training for the 
marines of the DCO-IDM Companies provided by MCCWYG as well as training 
for MIG leadership on employment, authorities, capabilities, and 
command and control. In addition, our Service retained CPTs remain 
engaged with the DCO-IDM Companies and continue to provide training 
opportunities. Members of DCO-IDM Companies have accompanied our 
Service CPTs during real-world operations and this partnership 
continues today.
    To increase cyber readiness across the Service, we continue to 
emphasize the role of the Commander in the security and defense of the 
MCEN, and are conducting Cyber Readiness Visits at commands throughout 
the Marine Corps to identify cyber key terrain, assess readiness and 
culture, and bolster our defenses. As the Marine Corps' cyber career 
field comes online, we will aggressively build cyber operators to 
ensure the MAGTFs, bases and stations have the expertise and capacity 
to enhance cyber readiness not only at MARFORCYBER, but across the 
Marine Corps.
    We have accomplished much in a short period working within the 
construct of these lines of effort, but still much work to do.
                       cyber workforce management
    Since my last testimony in May, Headquarters, Marine Corps has 
approved my request to grow MARFORCYBER capability and capacity. We are 
now working on implementation as we nearly double the size of the 
command, adding more than 500 additional personnel, both uniformed and 
civilian. This growth includes increased capacity at the MARFORCYBER 
Headquarters staff, increasing the size of MCCWYG to focus on improving 
our readiness through improved training and application of lessons 
learned across the Marine Corps, and creating a fully staffed JFHQ-C. 
This growth is programmed to occur over the next 5 years, starting this 
year and ending in fiscal year 2022. Our growth is in-line with the 
Commandant's vision and Future Force 2025.
    At MARFORCYBER we have more than 60 reservists integrated into the 
command, both as mobilized marines who are working 365 days a year to 
support our mission, along with part time drilling marines who come in 
periodically over the course of the year for both individual training 
periods and two week Active Duty training periods. Both groups of 
reservists provide one of the three functions; MARFORCYBER staff 
augmentation, support to MCCYWG, and support to joint, academic, and 
experimental activities. Over the last year our Marine reservist have 
made numerous contributions, including filling key roles in the 
MARFORCYBER staff, as well as augmenting USCYBERCOM in support of 
operational requirements. The Marines providing Reserve support to the 
MCCYWG leverage skills they have acquired both in Service and from 
their civilian work environments. They support and augment CPT 
activities based on identified skill gaps. Recently, one of our CPTs 
had a scheduled mission and a last minute personnel gap was identified, 
and with 48 hours, a Reservist with the requisite skills volunteered to 
support the mission. This is just one example of how our Reserve 
marines are a force multiplier in the defense of the MCEN.
    Marine Forces Reserve (MARFORRES), in conjunction with the current 
effort to increase Active Component (AC) DCO capability and capacity, 
is developing a Reserve component capability to augment, reinforce, and 
sustain AC MEF DCO requirements. The primary capability will be the 
activation and phased build of two Selected Marine Corps Reserve (SMCR) 
DCO-IDM Companies. These companies will be structurally similar to 
their AC counter-part companies and will most often be deployed and 
employed at the team level. MARFORRES' vision is to create meaningful 
opportunities for the population of marines who leave Active service, 
and to capitalize on their success and credentialing as civilians in 
the IT sector.
    On the civilian side, the Office of Personnel and Management 
approved an increase in MARFORCYBER's recruitment and retention 
incentives from 25 percent to 50 percent. These additional incentives 
have assisted in hiring and maintaining critical cybersecurity civilian 
billets within MARFORCYBER. This increase provides us the ability to 
negotiate with the workforce, gaining ground against the private 
sector's ability to offer more money and incentives. In addition, we 
are participating in the DOD's Cyber Excepted Service (CES) Personnel 
System. The CES is a personnel system aligned to both Title 10 and 
Title 5 provisions that support the human capital lifecycle for 
civilian employees engaged in or in support of cyber-related missions. 
The implementation of this new personnel system will occur over three 
phases, with Phase II beginning in January of this year for the Service 
Cyber Components and, extending over a two year implementation process.
    Policy that limits the recruitment of recently retired or separated 
service members that are cleared and fully trained has become 
substantially more difficult after the expiration of the policy 
suspending the 180-day cooling off period required before taking a 
government position. While there is a waiver process for uniquely 
qualified candidates, we have found that the waiver process itself is 
cumbersome and not timely, approaching 180 days in many cases. We are 
working with key stakeholders to help streamline the waiver process, 
which would help decrease the wait time in getting qualified personnel 
on board. To ensure that we are not unnecessarily losing our homegrown 
talent, the cyber workforce should be waived from this requirement.
    As we continue to increase our capability and capacity, we look 
forward to occupying our new headquarters building on NSA's campus. I 
want to again take the opportunity to thank you for the Military 
Construction funding that enabled the development of our new 
headquarters. When I was last before you in May, I updated you on the 
development of this new operational headquarters facility, designed to 
meet the demands of our increased mission. Previously referred to as 
the East Campus Building--Marine Corps, I am pleased to inform you that 
we have received approval from within the Service and USCYBERCOM to 
name our new facility after an American hero, Colonel Alva B. Lasswell. 
Colonel Lasswell was a World War II cryptologist credited with 
translating an intercepted message that revealed Japan's planned attack 
on Midway Island. Colonel Lasswell's work enabled Admiral Nimitz to 
appropriately plan history's first great carrier battle at Midway, a 
turning point of the war in the Pacific Theater. This building is much 
more than just new administrative offices--it will serve as the Marine 
Corps' premier cyber warfighting platform, and will provide full 
spectrum cyberspace operation capabilities. We are on schedule to 
complete our move in to the Lasswell Building by 4th quarter of fiscal 
year 2018, and we anticipate a dedication and ribbon-cutting ceremony 
to be held sometime this spring.
                               conclusion
    Thank you again, Mr. Chairman and Members of the Committee, for 
inviting me to testify before you today, and for the support that you 
and this Committee have provided our marines and their families.
    I am incredibly proud of the strides we have made in 
operationalizing cyberspace in support of the MAGTF and joint 
warfighter since I was last before you in May, but we have not 
succeeded alone. Our successes have come from a growing network of 
partnerships across the Service, the Operating Forces, government, 
industry, and academia. Cyberspace is a team effort and we are quickly 
gaining momentum and buy-in to build a more capable, ready force that 
is prepared to fight--and win-tonight in the cyberspace domain.
    I look forward to continuing this dialogue and working with members 
of this subcommittee in the future.

    Senator Rounds. Thank you, Major General Reynolds.
    Major General Weggeman, you are last because you are the 
youngest of the branches.
    [Laughter.]
    Senator Rounds. You may begin.

   STATEMENT OF MAJOR GENERAL CHRISTOPHER P. WEGGEMAN, USAF, 
 COMMANDER, TWENTY-FOURTH AIR FORCE, AND COMMANDER, AIR FORCES 
                             CYBER

    Major General Weggeman. I think that's an honor.
    Thank you, Chairman Rounds, Ranking Member Nelson, 
distinguished members of the subcommittee. Thank you for the 
opportunity to appear before you today along with my esteemed 
cyber colleagues. I look forward to discussing the Air Force's 
significant progress in advancing full-spectrum cyberspace 
operations and our contributions to joint operations.
    I have the distinct honor to lead more than 15,000 total-
force airmen and civilians operating globally as a maneuver-
and-effects force in a contested domain delivering cyber 
superiority for our service and in support of our joint 
partners.
    In this domain, threats are growing rapidly and evolving. 
Our adversaries are acting with precision and boldness, 
utilizing cyberspace to continuously challenge the United 
States below the threshold of armed conflict, imposing great 
costs on our economy, national unity, and military advantage. 
In this ever shifting and competitive terrain, we must remain 
vigilant with cyber hygiene, cybersecurity, and threat-specific 
defensive operations in order to compete, deter, and win.
    The Air Force has invested in the creation, fielding, and 
sustainment of an ever increasing portfolio of cyber defensive 
and offensive capabilities. Specifically, seven cyber weapon 
systems designed to provide a tiered global defense of the Air 
Force information network; second, defensive cyber maneuver 
forces to actively defend key cyber terrain; and, last, 
offensive capabilities to provide all-domain integrated 
operational effects to combatant commanders.
    The Air Force's Cyber Mission Force Teams are on track to 
achieve full operational capability by the end of fiscal year 
2018. As of today, 35 of 39 Cyber Mission Force Teams have 
declared full operational capability. By comparison, 
highlighting our extensive progress, at this time, at this same 
hearing 10 months ago, we only had nine teams at FOC [Full 
Operational Capability]. Our four remaining teams are expected 
to declare FOC by June of 2018, concluding our build phase 3 
months ahead of deadline.
    Air Force Cyber trains and fights as a total-force team, 
harnessing the unique attributes and talents of all 
components--regular Air Force, Air National Guard, and Air 
Force Reserve. Across 24th Air Force, we employ more than 
11,000 full-time and part-time Reserve and Guard personnel 
providing support for training, intelligence, full-spectrum 
operations, command and control, and capability development. 
For our Cyber Mission Force Teams, the Air Force has employed a 
built-in total-force strategy with 15 Air National Guard 
squadrons and a classic Reserve associates squadron providing 
additional trained and ready surge capacity in times of crisis.
    Cyberspace operations are powered through partnerships, and 
24th Air Force is wholly committed to strengthening our 
relationships with other Air Force partners, our sister 
Services, interagency counterparts, combatant commanders, 
coalition allies, as well as civilian industry partners. 
Congressional support continues to be essential to our 
significant operational progress, and will only increase in 
importance as we move forward.
    I will keep my opening remarks brief, as I have provided a 
comprehensive update for the committee in my written statement 
outlining in detail our significant operational improvements, 
specific initiatives, successes, and challenges, of course.
    I am honored and humbled to command this magnanimous 
organization, and I am inspired every day by the innovative 
spirit, the patriotism, the sacrifice, and audacity of our Air 
Force cyber warriors. They are, by far, our Nation's most 
powerful cyber weapon system.
    I look forward to your questions and the ensuing dialogue.
    Thank you.
    [The prepared statement of General Weggeman follows:]

         Prepared Statement by Major General Chris P. Weggeman
                              introduction
    Chairman Rounds, Ranking Member Nelson, and distinguished members 
of the Subcommittee, thank you for the opportunity to appear before you 
today, along with Assistant Secretary of Defense Kenneth Rapuano and my 
fellow Service Cyber Component Commanders. I look forward to discussing 
the Air Force's significant progress in advancing full-spectrum 
cyberspace operations and our contributions to joint operations 
globally. I have the distinct honor to lead the audacious men and women 
of the 24th Air Force, Air Forces Cyber (AFCYBER), and Joint Forces 
Headquarters Cyber (JFHQC) Air Force. Our headquarters is located at 
Joint Base San Antonio-Lackland, Texas and we have over fifteen 
thousand Total Force airmen and civilians on-mission around the world, 
diligently increasing our capability to deliver full spectrum cyber 
capabilities and effects in support of the Air Force, the Joint Force, 
and our Nation.
    AFCYBER warriors are operating globally as a maneuver and effects 
force in a contested domain, delivering cyber superiority for our 
Service and in support of our joint partners. Our forces exist to 
preserve our freedom of maneuver in, from, and through cyberspace while 
denying our adversaries the same. Our Command places significant 
emphasis on operationalizing cyberspace as a warfighting domain across 
the range of military operations and continues to evolve our tactics, 
techniques, and procedures (TTPs) to provide ready cyber forces to 
Combatant and Air Force Commanders across the globe.
    As Commander, 24th Air Force, I report directly to the Commander of 
Air Force Space Command and am responsible within the Air Force for 
classic Title 10 organize, train, and equip functions. Twentyfourth Air 
Force also serves as the Cyber Security Service Provider (CSSP) for our 
Air Force networks and other designated key cyber terrain. Under the 
AFCYBER hat, I am the Air Force's Cyber Component Commander who 
presents and employs Air Force cyber forces to United States Cyber 
Command. These ready forces plan and execute all-domain integrated, 
full-spectrum, cyberspace operations in support of assigned Service and 
Combatant Command missions. Finally, under my third hat, as Commander, 
JFHQC Air Force, I lead a United States Cyber Command subordinate 
headquarters with delegated Operational Control of assigned cyber 
Combat Mission Forces employed in a general support role to both United 
States Strategic Command and United States European Command. At 24th 
AF/AFCYBER, we execute our assigned cyberspace operations missions 
through six distinct but inter-related lines of effort--Build, Operate, 
Secure, Defend, Extend, and Engage, or what we refer to as ``BOSDEE''.
                       defense is our #1 mission
    In our 24th Air Force and AFCYBER roles, we build, operate, secure, 
and defend the Air Force networks every day to ensure these networks 
remain available and secure for assigned missions, functions, and 
tasks. The broader mission includes base infrastructure, business, and 
logistics systems, as well as mission and weapon systems; in total, 
providing on-demand capabilities to approximately one million users 
worldwide. In 2012, the Air Force CIO designated 24th Air Force as the 
CSSP for all systems within the Air Force enterprise. In this capacity, 
we are responsible for protecting, monitoring, analyzing, detecting, 
and responding to malicious cyber activity across the Air Force 
network. Our reliance on cyberspace continues to grow and we are still 
scaling capacity to execute this expansive mission requirement. We are 
working closely with Headquarters Air Force and Army Research 
Laboratories to ensure our threat- and risk-driven defensive operations 
preserve our freedom of maneuver in, from, and through cyberspace while 
denying our adversaries the same. In 2016, we instituted the Air Force 
Information Network Defense Campaign Plan and have since made great 
strides in improving our cybersecurity posture and compliance with both 
USCYBERCOM orders and industry-recognized cyber hygiene best practices.
    A major cyberspace security and defense success over the last year 
has been the employment of the Automated Remediation and Asset 
Discovery (ARAD) capability suite across the AF enterprise. ARAD is an 
instantiation of the commercial Tanium product, enabling operators to 
perform vulnerability management, incident response, system health 
diagnostics, as well as asset identification and optimization across 
our AF network in a matter of seconds to minutes vice days to weeks 
using previous capabilities. In May 2017, at first onset of the 
WannaCry Ransomware attack, our cyber crews employed ARAD capabilities 
to quickly identify, prioritize and secure all vulnerable systems 
across our enterprise terrain within hours; resulting in zero 
infections on Air Force networks. By contrast, the 2013 Heartbleed 
virus remediation effort took 8 months to achieve the same results. The 
demonstrated operational power and potential of ARAD is truly 
revolutionary, and we are diligently experimenting, evolving, and 
developing operational employment concepts, use cases, and applications 
to close key mission-capability gaps in close partnership with the 
Tanium experts.
                   cybersecurity in the 21st century
    In the contested cyberspace domain, threats are growing rapidly and 
evolving. Our adversaries are acting with precision and boldness; 
utilizing cyberspace to attack the United States below the threshold of 
armed conflict; imposing great costs on our economy, national unity, 
and military advantage. In this ever-shifting and competitive terrain, 
we must remain vigilant with cyber hygiene, cyber security, and threat-
specific defensive operations in order to compete, deter, and win.
    The Air Force has invested in the creation, fielding and 
sustainment of seven cyber weapon systems designed to provide a tiered 
global defense of the Air Force Information Network. We have also 
fielded defensive cyber maneuver forces and capabilities to engage 
threats able to bypass defenses, and offensive cyber forces and 
capabilities to provide all-domain integrated operational effects to 
Combatant Commanders.
    Last year, I discussed three transformational efforts that 24th Air 
Force, in collaboration with our Service staff and Major Commands, 
developed and implemented in order to transition our force and 
Information Technology posture towards a 21st century, Commander and 
cyberspace operator driven, threat and risk-based mission assurance 
cyber-ecosystem. These three major efforts include; 1) evolving towards 
Enterprise Information Technology as a Service (EITaaS), 2) maturing 
and resourcing our Air Force CIO Cyber Squadron Initiative and inherent 
Mission Defense Teams, and finally 3) the development and fielding of 
Air Force Material Command's Cyber Resiliency of Weapons Systems 
(CROWS) Office capabilities. These three major endeavors, deliver a 
coherent approach to cyber security, cyber defense, weapon system 
resiliency, and the ever critical ``every airmen a sentry'' cyber 
hygiene culture across our Air Force.
    Over the past year the EITaaS concept has evolved. EITaaS is a 
network reference architecture designed to smartly divest the costly 
and manpower intensive network operations, maintenance, and customer-
service support demands of our Service's dated, Information Technology 
infrastructure via outsourcing basic services to commercial and 
industry partners. The Chief of Staff of the Air Force has approved 
this plan of action and requested an accelerated implementation 
starting in fiscal year 2018. The Air Force has identified the first 
seven bases to implement EITaaS to determine the service planning 
necessary to capture further requirements, learn appropriate command 
and control and security provisions and transition airmen from NetOps 
missions and functions to cyber-based system defense and mission 
assurance. A companion effort within EITaaS is our on-going Cloud 
Hosted Enterprise Services (CHES).
    Cloud Hosted Enterprise Services (CHES), started in 2016, provides 
collaboration (email, Skype for business, SharePoint) as Software-as-a-
Service. It is currently securely hosting over 187,000 user accounts 
across ten bases. This service delivery model has been praised for 
improved network performance, reliability and scalability. EITaaS will 
integrate into on-going Joint Information Environment (JIE).
    Joint Regional Security Stack (JRSS) migrations and fielding 
continues in close partnership with the United States Army and the 
Defense Information Services Agency (DISA). All DOD components will 
ultimately utilize JRRS. To date, we have successfully migrated four 
regions, to include roughly four hundred thousand users across 105 
locations. While JRSS still requires TTP development and a more mature 
operational employment framework, this joint, shared security standard 
provides state of the art cyber security capabilities at our Service 
(Tier-2) AFNET gateway boundaries, continuing to add strength to our 
layered defense.
    The CMF Cyber Protection Teams (CPTs) and Air Force Mission Defense 
Teams (MDTs) continue to provide Active cyber defense at all echelons 
of Air Force organizations; delivering enterprise mission assurance in 
a contested domain even in the presence of a maneuvering enemy. Mission 
Defense Teams (an on-going ``pilot'' program across all Major Commands) 
are small 4 to 6 person teams; trained, equipped and task-organized to 
survey, secure, and protect key cyber terrain at wing and below in 
order to deliver cyber-based mission assurance for unit's assigned 
missions and weapon systems. This initiative employs a Commander and 
mission-driven force employment model. Mission Defense Teams employ 
cyber security and defense tactics, techniques, and procedures in 
addition to their own suite of tailored cyber defense sensors and tools 
to provide Active defense at the base level. Since 2016, the Air Force 
has executed 45 Mission Defense Team ``Pathfinder'' initiatives across 
a diverse set of Air Force missions and organizations to test and 
validate the operational concept and cyber defensive tool-set 
requirements. These ``Pathfinder'' units focused on functional mission 
analysis to identify key-cyber terrain, mission-planning, and network 
characterization. Leveraging the ``Pathfinder'' lessons learned, the 
Air Force is now working to optimize the MDT force construct, training 
needs, intelligence support requirements, and tool-set. MDT efforts 
will continue to be synchronized with our CSSP, CPT, and CROWS missions 
to provide an integrated, layered security and defensive posture for 
Air Force weapon systems.
    The third transformational effort is Air Force Materiel Command's 
Cyber Resiliency of Weapons Systems, or CROWS office (in response to 
the 2016 NDAA section 1647 requirement). Their on-going mission is to 
increase cyber resiliency of Air Force weapon systems across our 
acquisition and life cycle management processes to maintain mission 
effective capability under adverse conditions. CROWS has two primary 
objectives; first, to ``bake-in'' cybersecurity into developmental and 
future mission and weapons systems, and second; to employ a prioritized 
threat- and risk-based, cyber vulnerability assessment of existing 
systems to best mitigate risk to missions and forces. Based on the NDAA 
language, the Joint Staff required the Air Force to evaluate 50 legacy 
weapon systems. To date, the Air Force has begun 23 weapon system 
evaluations and is on track to complete all 50 by the end of 2019 
(deadline set by NDAA.) Their roadmap to cyber resiliency advances from 
systems assurance to the institutionalization of cyber security, cyber 
hygiene, and resiliency across all Air Force weapons systems. Their 
comprehensive strategy includes sustainable and programmable tools, 
infrastructure, and a skilled cyber workforce of operators, system 
engineers, and acquisition professionals to deliver end-to-end mission 
and weapon system cyber security. While still relatively new, the CROWS 
Cyber Incident Coordination cell has proved invaluable throughout this 
past year, working in coordination with 24th Air Force, as 
vulnerabilities have been found in cyber key terrain of mission 
systems. The office will continue to mature and enhance the cyber 
security posture of new and existing weapon systems.
    The combined effects and capabilities of these three major Air 
Force transformational efforts, plus our ongoing AFCYBER cyber security 
campaign plan leveraging signals intelligence (SIGINT) and all-source 
intelligence, industry, National Institute of Standards and Technology, 
and DISA best practices, provides the Air Force with a full-spectrum, 
coherent framework for generating threat- and risk-based mission 
assurance for our networks, infrastructure and mission/weapon systems. 
This mission assurance strategy is reinforced by an acquisition and 
life-cycle sustainment enterprise empowered, innovating, and resourced 
to deliver cyber security and resilience for our Air Force.
                             af data office
    Data is the digital currency that underpins multi-domain 
operations, decision-making and command and control. For a Service to 
be a leader in the application of artificial intelligence to increase 
warfighting resilience and lethality, it must first be a leader in 
data. To this end, the Air Force has stood up the Air Force Data 
Office, and appointed a Chief Data Officer, Maj Gen Kim Crider USAFR. 
The Air Force is the first Service to create an enterprise level Data 
Office reporting directly to the Service Secretary.
    The Air Force Data Office has developed a ``VAULT'' strategy, 
centered on ensuring relevant data is--Visible, Accessible, 
Understandable, Linked, and Trustworthy. They are diligently working on 
data science application use-cases across a cross-section of Air Force 
missions and functions to generate both visible quick-wins and a 
greater understanding of the required enterprise-data architecture and 
operational employment concepts required to deliver desired outcomes. 
Data driven multi-domain Command and Control is the path to integrated 
Joint operations whose operational timing/tempo lives inside our 
adversaries ``OODA'' loop, overwhelming their decision cycles, 
delivering the operational advantage and initiative to our Joint 
Forces.
       cyber mission force: transitioning from build to readiness
    The Air Force is on track to achieve Full Operational Capability 
(FOC) for all Service CMF teams by the end of fiscal year 2018. As of 1 
March 2018, 35 of 39 Cyber Mission Force (CMF) teams have declared FOC, 
and the four remaining teams are expected to declare FOC by June 2018, 
3 months ahead of the deadline. AFCYBER has developed a team-by-team, 
name-byname plan that ensures all teams will achieve FOC on time. This 
significant milestone is due to the years of hard work by the Service 
and USCYBERCOM, with the support of Congress.
    While we remain laser-focused on building and delivering our 
Service teams to FOC, we continue, in earnest, to generate and review 
team readiness leveraging well-established institutional standards and 
metrics (Personnel, Training, Equipment and Supply.) We are working 
with our Service and USCYBERCOM to institutionalize formal CMF Defense 
Readiness Reporting System (DRRS) definitions, metrics and integration. 
This will normalize CMF force presentation and force management while 
generating critical mission capability and capacity gap analysis needed 
for Commanders to drive force readiness. As Admiral Roger's stated, 
``Commissioning a warship--while an important event--does not make that 
ship mission ready.'' Readiness and lethality are paramount. The Air 
Force continues to work to recruit and retain top talent, develop 
modularized and agile training, build our own military operations 
infrastructure, as well as deliver organic combat capabilities to the 
Joint war fight (these initiatives are discussed below). We have made 
great strides, but a lot of work still needs to be done to ensure our 
CMF crew members are proficient at their duties and the whole team is 
ready and able to perform assigned missions and tasks.
    The Air Force has taken a conscientious and deliberate approach to 
building our Service cyber workforce. While CMF remains the #1 
priority, the Air Force is actively developing cyber airmen and 
civilians that have the proper balance of technical and tactical/
operational competence needed to fully integrate cyberspace into joint 
military operations. The Air Force is still building the cyber bench, 
employing a deliberate approach to human-capital professional force 
development.
    At 24th Air Force we know the most critical element in cyberspace 
operations is not copper or silicon, its carbon. Our innovative and 
audacious airmen are the centerpiece to our AFCYBER capabilities, our 
most powerful weapon system by far; they have demonstrated time and 
again their agility and dedication towards generating mission outcomes 
for our Service, the Joint Force and our Nation. We have thrust them 
directly from build to battle throughout the CMF build evolutions. 
Therefore, we remain committed to recruiting, training, developing, and 
retaining the right cyber talent. I must thank Congress for increasing 
our agility in shaping our workforce; the new Cyber Excepted Service 
authorities will help us recruit, manage, and retain cyber expertise in 
a highly competitive talent market. With support from the NDAA, the Air 
Force now has the ability to directly commission cyberspace operations 
officers, the first two of whom will be entering the force early this 
year, one as a Second Lieutenant, and one as a First Lieutenant. We 
have also instituted retention bonuses for officers and enlisted within 
the cyber career field in order to preserve the experience of our 
trained and ready airmen. We owe it to the incredible men and women 
that make-up these teams to see they are properly trained, equipped, 
and prepared for all assigned missions. There must be an evolving 
dialogue centered on resourcing and procuring the capabilities and 
capacity required for our CMF to be properly postured for success 
beyond the build.
                        ``one force'' in afcyber
    Air Force Cyber trains and fights as one Total Force team with all 
components; Regular Air Force, Air National Guard, and Air Force 
Reserve. Across 24th Air Force, we employ more than eleven thousand 
full-time and part time reservists, providing support for training, 
intelligence, operations, and command and control, incorporating units 
in 31 states.
    We are delivering cyber forces in support of the Department's CMF 
framework fully integrated with our Total Force partners in the Air 
National Guard and Air Force Reserves. These ``One-Force'' teams are 
providing United States Cyber Command with capabilities to defend the 
nation, support Combatant Commanders, and defend the DODIN. For CMF, 
the Air Force has 15 Air National Guard squadrons supporting two Cyber 
Protection Teams and one National Mission Team. At the conclusion of 
our CMF build-phase, the Air Force's Cyber Protection Force will have a 
50 percent surge capacity built-in with 10 Cyber Protection Teams in 
ready-reserve status and available during times of crisis. By the end 
of Calendar Year 2018, all 15 Air National Guard squadrons will have 
been mobilized and have ``on-mission'' experience under their belts. 
Similarly, the Air Force Reserves provide the equivalent of a full 
Cyber Protection Team and are currently integrated with Active Duty 
forces. This represents a significant portion of the Air Force's 
overall contributions and will draw on more than 1,100 Reserve 
component members. These Total Force professionals bring a powerful 
pedigree of experience and expertise across the spectrum of cyberspace 
missions. Many have years if not decades of experience working in 
prominent civilian IT, Infrastructure and Industry positions, which 
bolsters our cyber mission-effectiveness on many levels.
    The Air National Guard has already completed five extremely 
successful Cyber Protection Team six-month mobilizations (254 cyber 
operators) in support of United States Northern Command's air defense 
missions and associated key-cyber terrain security and defense.
    The Reserve's 854th Cyber Operations Squadron in conjunction with 
the Tennessee Air National Guard provide over 300 personnel to augment 
and provide continuity of operations for the Air Force's Cyber 
Operations Center.
    The Total Force also plays a crucial role in our Engineering and 
Installation (E&I) and Combat Communications capabilities; consisting 
of over 75 percent of the Air Force's available E&I and Combat 
Communications personnel. Twentyfourth Air Force E&I Citizen Airmen 
have been on site executing USSTRATCOM's new HQ cabling and IT-network/
systems fit-out for over 3 years, delivering an estimated DOD cost 
avoidance of over $400 million over original contract bids. Our 5th 
Combat Communications Group continues to deliver and extend combat 
capabilities at the tactical edge. In 2017, our 5th Combat 
Communications Group deployed more than 131 personnel to over 25 sites 
in 14 countries. In February 2017, the 5th Combat Communications Group 
deployed airmen to stand up the initial communications at a bare base 
in Syria. The team provided communications support to the site's Senior 
Airfield Authority who managed the ramp and airspace for the only U.S. 
military logistics hub in country and home to units from the Army, 
Marine Corps, Special Operations, and Department of State. In fiscal 
year 2017, the Air Force garnered $42.7 million to modernize the 
capabilities for 23 combat communications units. These new capabilities 
empower our combat communications forces to be better prepared and more 
efficiently support Combatant Commanders' worldwide.
    In June 2018, 24th Air Force will host the second-annual state 
Adjutants General, Assistant Adjutants General, and Wing Commanders 
Cyber Symposium. Improving operational awareness focused on the 
mission, Commanders' priorities, and resources are key to forging a 
lasting partnership with our Total Force brethren. This gathering will 
continue to enable critical collaboration and information flow 
regarding personnel, equipment, requirements, and authorities and 
generate insights into optimizing force presentation and harnessing our 
citizen airmen's industry expertise to solve tough cyber operations 
problems.
    Cyberspace operations are a ``team sport'' and 24th Air Force/
AFCYBER is wholly committed to strengthening our relationships with 
other Air Force partners, our sister Services, interagency 
counterparts, Combatant Commanders, coalition allies, as well as 
civilian industry partners. Given the proximity of our headquarters and 
close mission alignment, 25th Air Force continues to be a critical 
strategic partner across all of our missions. The 25th Air Force 
Commander, Major General Mary O'Brien, has been a vital CMF force 
provider and steadfast ``Wingman'' as we partner to generate enduring 
force readiness and operationalization of the cyber domain.
                     support to combatant commands
    Cyberspace is an inherently global domain that impacts every 
function of our Joint Force. This force is increasingly dependent upon 
cyber capabilities to conduct modern military operations. JFHQ-C AF 
supports assigned Combatant and subordinate Joint Force Commanders by 
providing full-spectrum, all domain integrated cyberspace maneuver and 
effects in support of their assigned missions. JFHQ-C AF delivers 
``Cyber IN War'' for our Combatant Commanders. As Commander, I retain 
Operational Control of assigned Service and joint Cyber Mission Forces 
providing general support to both United States European Command and 
United States Strategic Command.
    We continue to operationalize and mature cyber operations into 
Tier-1 Combatant Command Exercises, concluding our third exercise in 
January. Our continued involvement in major exercises enables fully 
integrated joint planning, maneuver, targeting and fires coordination 
for cyberspace maneuver and effects operations. It also drives 
Combatant Command awareness and trust of cyberspace capabilities. Our 
team effectively integrated within existing, institutional planning, 
targeting and fires processes to provide cyber effects across the full 
range of military operations within the exercise. Our capabilities and 
effects were fully synchronized with the timing and tempo dictated by 
the supported Commander. Cyberspace domain operations were employed 
using extant processes, fully integrated with all other classic 
warfighting domains propagating force awareness, comprehension and 
intrinsic value across all participants, agnostic of professional 
pedigree or experience.
    The Chairman of the Joint Chiefs of Staff furthered this goal by 
updating the cyberspace operations command and control framework last 
fall, directing USCYBERCOM establish Cyber Operations--Integrated 
Planning Elements (CO-IPEs) at each Combatant Command. JFHQC AF has 
administrative control of the CO-IPEs at USEUCOM, USSTRATCOM, and 
USTRANSCOM to plan, synchronize, integrate, and de-conflict cyber 
operations with Combatant Command plans and operations. We are 
partnering closely with our Service to build and operationalize these 
new units to full operational capability within the next three to five 
years.
                              partnerships
    The 24th Air Force understands the cyberspace domain is primarily 
provisioned by private industry and our ability to collaborate with our 
industry partners benefits the nation's cybersecurity posture. We have 
developed Cooperative Research and Development Agreements with 20 
industry leaders in Information Technology, Defense, and Banking to 
share and collaborate on innovative technologies and concepts. These 
collaborative efforts allow us to advance science and technology in 
support of cyberspace operations, as well as share best practices with 
industry partners. We continue to leverage this program and are 
currently in the process of enhancing our partnerships with academia.
    We employ private sector technology and expertise to build, 
operate, secure, and defend the Air Force Network. Right now, within my 
headquarters and operations center, we have experts from leading 
technology companies (Microsoft, Cisco, Symantec, AT&T) working hand in 
hand to develop solutions to both current problems and future concepts.
    In cyberspace, innovation is crucial. Over the past two years, we 
have synchronized with cyber innovation centers of excellence across 
the Service, Department, and Nation, including the Air Force Academy 
CyberWorx, Defense Digital Service (DDS), Defense Innovation Unit 
Experimental (DIUx), the Cyber Proving Ground, Air Force and National 
Research Labs, the Federal Bureau of Investigation (FBI), and Defense 
Advanced Research Projects Agency (DARPA.)
    In December 2017, in cooperation with Air Force Defense Digital 
Service, we launched the second instantiation of our Hack the Air Force 
program. A bug bounty program, Hack the Air Force continues to showcase 
how a diverse, crowdsourced pool of private sector, ethical hackers can 
help quickly identify critical security vulnerabilities across public 
facing Air Force assets. This event included 24 top hackers working 
alongside 24th Air Force cyber operators to both hack and remediate 
vulnerabilities in real-time. Hackers hailed from 32 international 
partner nations, including members of the North Atlantic Treaty 
Organization, Five Eyes nations, and Sweden. This event was a major 
success; discovering over 106 valid vulnerabilities and allowing our 
cyber operators to gain from the expertise of the hackers as well as 
garner real time remediation experience.
    We are also fortunate to have a long-standing close relationship 
with San Antonio, Texas, also referred to as ``Cyber City USA.'' The 
local community has committed significant resources to support the 
growth of cybersecurity both locally and nationally. Our leadership 
team participates in a variety of civic leader engagements to share 
lessons related to cybersecurity. By partnering together, 24th Air 
Force supports a broad array of programs designed to reach young 
students, essential to our nation's success in this arena. A good 
example is the Air Force Association's ``Cyber Patriot'' STEM 
initiative in which our airmen mentor cyber teams as part of a 
nationwide competition involving nearly 10,000 high school and middle 
school students.
                      challenges and opportunities
    As a new and rapidly maturing warfighting domain, cyberspace 
operations continue to make huge advancements in the operationalization 
of missions and forces. However, there are many challenges in our 
critical path towards delivering required capability and capacity for 
assigned missions. At the macro-level, these challenges fall into four 
broad categories; (1) manpower and training, (2) cybersecurity of 
weapons systems, (3) key enablers to cyberspace operations, and (4) 
professionalization of the cyberspace domain workforce. These broad 
categories closely mirror Admiral Rogers' focus areas for United States 
Cyber Command and the Service Cyber Components. His charges direct us 
to secure and defend weapons and mission systems and the data that 
resides on them, as well as increase speed, agility, precision, 
readiness and lethality of an effectively manned and trained cyber 
workforce in coordination with Guard and Reserve forces to deliver all 
domain integrated effects across all phases of operations that support 
DOD strategy and priorities. While the primary challenges remain the 
same, and acknowledging there is much more to do, the Air Force has 
made and continues to make great progress along these lines of effort.
Manpower and Training
    Success in our missions depends on a trained and ready force. As 
stated above, congressional support has been instrumental in increasing 
our agility in scaling and shaping our workforce. A dedicated Civilian 
Cyber Recruiting cell was established at the Air Force Personnel Center 
in January 2017 to focus on cyber recruiting. In 2017, the cell 
completed 30 recruiting events including cyber collegiate competitions 
and technology events. The Air Force has expedited civilian cyber 
hiring through the use of Direct Hire and Expedited Hire appointments, 
reducing the hiring time by about 35 percent. For our military members, 
we are creating aptitude assessments to find the right personnel and 
modifying our cyber personnel paths including monetary incentives to 
retain them. Monetary incentives range from $300 per month for our new 
enlisted cyber operators to $60,000 over the period of four years for 
some of our officers.
    We continue to make great strides, but challenges still remain. As 
discussed last year, manpower deficiencies in our units that operate, 
secure, and defend our networks still force a constant high-pressure 
deployed-in-place operating environment of competing priorities and 
risk decisions with insufficient force structure to meet critical 
operational demands. The EITaaS effort will help alleviate some of this 
burden, but should not be viewed as a complete panacea.
    In fiscal year 2019, USCYBERCOM transitions the CMF training 
mission to the Services. In preparation for the receipt of this 
mission, we continue to make our training pipeline more adaptive and 
responsive to operational needs. We have enhanced our training 
capacity, increasing the annual training throughput of our enlisted 
cyber initial skills training schoolhouse by 54 percent (211 to 324 
students per year) beginning in CY17. The Air Force also stood up a 
local San Antonio detachment to our advanced cyber formal training unit 
effectively doubling capacity there. This effort has allowed the Air 
Force to execute the CMF TFI Strategy and keep pace with the ever-
increasing cyberspace operator requirements outside of CMF. 
Additionally, the Air Force is developing specialized courses to 
deliver the right training at the right time to our cyber operators. We 
have created a new Cyber Intelligence Initial Qualification Training 
and a provisional offensive cyber operations formal training unit. In 
June 2018, 24th Air Force will host our first interactive operator 
course utilizing our organic military cyber operations platform. 
Looking toward the future, we are building a $14.2 million, 36,000 
square foot schoolhouse facility at our main cyber formal training unit 
at Hurlburt Field, Florida. Groundbreaking was on 10 August 2017 for a 
scheduled completion in late fiscal year 2019.
    The Service Staff in conjunction with Air Education and Training 
Command are currently developing custom Air Force Specialty Code (AFSC) 
training tracks based on a ``modular syllabus'' that utilizes the 
latest training assessment innovations and provides placement 
flexibility through the training pipeline. The concept allows airmen 
with intrinsic cyber competency to ``test-out'' of portions or modules 
of the curriculum. This methodology provides incentives and 
opportunities to our airmen who possess an advanced cyber aptitude, 
whether via formal or informal training or education, to advance 
through the pipeline and arrive on station at an operational unit in a 
significantly shorter time frame ready to contribute to our mission. In 
order for this concept to be effective, resourcing is required to 
design and validate aptitude assessment tools and develop an agile and 
responsive curriculum development framework that keeps pace with the 
advancement of technology, tradecraft, and our adversaries.
Cybersecurity of Weapon Systems
    We must continue to increase investment towards system cyber 
security and defense. The majority of all sustainment dollars today 
goes toward functional capability upgrades in any mission or weapons 
system program. Our current process of ``bolting on'' weapons system 
cyber security after the fact adversely impacts all three critical 
systems-acquisition and sustainment attributes: cost, schedule, and 
performance. It is more complex and expensive to defend mission systems 
where there is no inherent or ``baked in'' cybersecurity framework. As 
previously mentioned, the CROWS office is getting after this today as 
directed by the NDAA, but much more needs to be done from a resource 
and execution perspective to generate the tempo and scale of action 
necessary to secure our expansive weapon system portfolio.
Key Cyber Enablers
    The Department has begun planning for and resourcing a multiple 
phenomenology approach to generating ``access'' to required cyber-
space. Each Service is exploring multiple pathways to get to the target 
and deliver effects against our adversaries in cyberspace. The Air 
Force has planned and is provisioning its own organic military cyber 
operations platform, for Joint CMF use, separate and distinct from NSA. 
The Air Force's organic cyber military operations platform completed 
its proof of concept mission in September 2017 and is now being 
utilized by our CMF forces. Its continued development, along with agile 
and responsive tool development capabilities, will ensure assigned AF 
and Joint CMF mission priorities and requirements are being met.
Professional Development of our Workforce
    The Air Force established a Cyber Project Task Force (PROTAF) to 
monitor progress, identify challenges, and collaborate on manpower and 
personnel efforts to ``get after'' building the Air Force portion of 
the CMF. The Air Force also instituted a Service-wide policy to enforce 
back-to-back CMF tours for our CMF-trained personnel, thereby ensuring 
proper return on investment, and is reviewing the current Active Duty 
Service Commitment model for certain cyber operations work roles to 
ensure proper return on investment. Furthermore, the Air Force 
recognized the positive value of spreading cyber-mindedness and 
experience across our AF enterprise, just like air and space 
operations, to ensure cyber competency across all mission areas and 
corporate activities.
Risk
    In order to become the challenger in the cyber domain and operate 
effectively across the range of military operations, we must address 
our current risk posture. The natural evolution and progression of 
cyberspace operations (maneuver and effects forces) from NSA's long-
standing SIGINT and CNE missions (intelligence forces) and operations 
brings with it a well-established intrinsic risk posture to gird 
foreign intelligence collection operations in an extremely congested 
and contested operational Domain.
    In this light, today's cyberspace operations are overly risk-driven 
vice being mission-driven and risk-informed more in line with the other 
classic domains of warfare. USCYBERCOM and the Service Cyber Components 
require a more responsive and agile mission-oriented risk framework 
which delivers the speed, agility and operational fighting tempo needed 
to seize the initiative and advantage in our battle space.
    We must challenge the Domain's outmoded concepts of sovereignty, 
attribution, and intelligence gain/loss calculus which overly constrain 
our ability to achieve cyberspace superiority across assigned missions 
and functions. Our risk framework needs to drive operational outcomes 
and be properly informed by both the war-winning and risk mitigation 
imperatives. We are in constant contact in cyberspace with multiple 
adversaries daily. We must persist, at times we must fallback and cede 
terrain, and we must accept some level of calculated capability 
attrition (access, platform, tools), all while harnessing our innate 
National capability and capacity to out think, out maneuver and out 
punch our adversaries. This is the recipe for eroding their confidence 
in cyberspace, imposing costs, and challenging their belief system for 
achieving benefit thru malicious cyber actions. In parallel, we need to 
effectively and transparently communicate the legitimacy of our actions 
in/from/thru cyberspace so our Nation and our Allies fully understand 
and support the actions we take to secure and defend our combined 
National Security interests, our freedoms and our unmatched quality of 
life.
                               conclusion
    I am proud of the tremendous strides we are making to 
operationalize cyber capabilities in support of joint warfighters and 
defense of the nation. Despite the challenges of growing and operating 
across a contested and diverse mission-set with a rapidly maturing work 
force, it is clear Air Force networks are better defended, Combatant 
Commanders are receiving more of the critical cyber capabilities and 
effects they require, and our departments' critical infrastructure is 
more secure due to our cyber warriors' tireless efforts. They are true 
professionals in every sense of the word.
    Congressional support was essential to the substantial operational 
progress made and will only increase in importance as we move forward. 
Without question, resource stability in the years ahead will best 
enable our continued success in developing airmen while growing our 
capability and capacity to operate in, through and from the cyberspace 
domain. Resource stability will also foster the innovation and 
creativity required to face the emerging threats ahead while 
maintaining a capable cyber force ready to act if our nation calls upon 
it.
    I am honored and humbled to command this magnanimous organization 
and look forward to a thorough and continuing dialogue.

    Senator Rounds. Thank you, Major General Weggeman.
    Senator Sasse has been a regular attendee at these, and yet 
he always seems to have to leave before he can ask any 
questions, and so, I'm going to defer my questions.
    Senator Sasse, you may begin.
    Senator Sasse. Being 101st in seniority has some downsides, 
it turns out.
    [Laughter.]
    Senator Sasse. Thank you, Chairman.
    Thank you all for your service. Thanks for being here.
    I'd like to talk about the Presidential Policy Directive 
20. Does it work? If not, what's the conversation like between 
you all and DOD and the NSC [National Security Council] about 
that? Could you talk us through, a little bit, about how long 
it takes in the process, from beginning to end? All of you, 
but, General Nakasone, if you want to start.
    Lieutenant General Nakasone. So, PPD-20, or Presidential 
Policy Directive 20, the methodology upon which we get approval 
for offensive cyberspace operations, is a work in progress, in 
terms of the way that we've approached getting approvals. I 
would say we have had a tremendous amount of success with 
ongoing operations with regards to JTF [Joint Task Force] Ares 
and our fight against ISIS. That has been, certainly, something 
that has allowed us to make a case for the things that we need 
to have done. Is the process perfect? No, it's not. But, this 
is a constant dialogue that goes on between ourselves, 
certainly Cyber Command, and the Department of Defense, and 
then the National Security Council, Senator.
    Senator Sasse. Admiral.
    Vice Admiral Gilday.Sir, thanks for the opportunity to 
comment on this subject.
    So, as General Nakasone mentioned, really we have not--PPD-
20 hasn't kept us from delivering effects when we have been 
required to deliver them. It is intended, or was intended, to 
be a very deliberate process in determining when and how we 
would deliver cyber effects against--whether it's a sovereign 
nation or whether it's a rogue actor. I think that--as an 
overarching policy, I think that it's a good framework. There 
are built-in mechanisms within that framework to accelerate 
authorities if we need them. If the Nation needs to get 
authorities quicker, it exists.
    But, as General Nakasone said, we have learned a lot in the 
last two and a half years. The world has changed a lot in the 
last two and a half years, in terms of how people act in this 
space. I do think that we're learning from that, and I do think 
it's informing policymakers. I think people are marching 
together to make improvements.
    Senator Sasse. So, you can cite specific examples of times 
when the process has worked, but I assume, if we were in a 
classified space, there would also be specific operations that 
you'd tell us about that you were never able to carry out 
because of how slow it is. I've heard other cyber warriors 
refer to PPD-20 as molasses. Is it the case? What can we talk 
about, in a nonclassified setting, about specific operations--I 
guess not talking about specific operations, but what general 
takeaways do we have about times when it's been too slow to 
enable you to act in cases when you had targets that you would 
have liked to have pursued?
    Major General Reynolds. Well, I can't speak to any of the 
operational specifics, but I'll give you a perspective, to your 
original question. Again, you know, policy is not my realm, as 
the senior military operational commander, but I'll give you 
some observations of PPD-20.
    Now, when I first came into the domain in 2012, that's when 
we were writing PPD-20. So, think about the maturation and the 
pace of change since then. So, 6 years later, we still have the 
same PPD-20. It started out as kind of an authorities-driven 
policy directive. I think what we're going to now is, we're 
learning now that we have capability, capacity to actually do 
more, we need more of a mission- and risk-informed policy that 
allows us a broader spectrum of authorities and risks that 
would allow us the pace, the timing and tempo of operations, I 
think, to match our adversaries in cyberspace. So, I think 
that's where we're going now, that we're showing that we have 
capability, capacity, we're proving ourselves that we can be 
responsible and credible actors in this space. I think we 
should be looking at: How do we broader--how do we create a 
broader spectrum of threat- and risk-based authorities and 
delegation so that we can respond with greater tempo.
    Senator Sasse. I want to follow up on the standardized 
delegation question, but generally I think you were trying to 
get----
    Major General Reynolds. Senator, I would--I mean, I think 
what you've heard from the other Commanders is exactly that, in 
that everything that we are learning--I think, every day, we 
are learning more and more about the delivery of effects in 
this domain. To General Weggeman's point, it's really a matter 
of: Where's the risk, and who should accept that risk and--from 
a decisionmaking perspective? I certainly think there's some 
room to have more discussion on this, on this PPD, sir.
    Senator Sasse. If you were, sort of, briefing the
    Armed Services Committee on what standardized delegations 
might look like for all of our allies, could you give examples 
of cases where our allies might have some delegated authorities 
that have been routinized that you'd like us to look at?
    Lieutenant General Nakasone. Certainly, Senator. I'd--I 
would welcome--probably do that in a different session.
    Senator Sasse. I think there are a number of us who'd like 
to follow up on that and be tutored by you. Again, with all 
respect to your operational responsibilities, not your 
policymaking responsibilities, but those of us who are in a 
policymaking role know well that we need the tutorials of 
people who are actually living this, day in and day out. So, 
I'm over time, here, but we'll follow up on that, and invite 
you back in a classified space.
    Thanks.
    Senator Rounds. Senator Nelson.
    Senator Nelson. Mr. Chairman, we're here in the family, so 
you go ahead.
    Senator Rounds. All right, thank you. I appreciate it.
    I'm going to follow up kind of along the same lines that 
Senator Sasse has begun. I think it's a good line to begin 
with.
    I'd kind of like to know what limitations and current 
policy most immediately challenge your ability to operate 
effectively in cyberspace, if I could. I'll just open this up. 
We're all in the family here. I recognize that we're in an open 
session, but we're talking about policy and the difference--and 
let me perhaps preface this a little bit.
    We've got thousands of years of knowing how armies have 
learned how to interact with one another on a battlefield. 
There are norms that have been established. The same with the 
law of the sea. There are norms that have been established, in 
terms of how we treat one another, military to military, 
military to civilian, and so forth. Even in the air, we have 
norms about how one aircraft treats another aircraft when there 
are incidents. Space is perhaps a little bit newer. Most 
certainly, the norms there have not been completely 
established.
    When it comes to cyber, the norms are still being 
established. Our expectation, in many cases, is based upon what 
norms in other domains of war have already been established. It 
would seem that our adversaries have not taken the same 
approach and are not bound by the same respect for norms as 
perhaps we are.
    So, let me bring this back. Again, what are the 
limitations, in terms of how we look at and how we view the 
norms, when it comes to our offensive capabilities? What are 
the limitations that we respect that perhaps you would see in--
Senator Sasse has indicated our allies perhaps have other 
alternatives or other policies established. We have peer 
competitors that most certainly do some things that we would 
not consider to be appropriate at this point, or we are 
restricted from doing. Do you have any examples of that or 
things that you have seen that have been frustrating to you 
with regard to their offensive movements that we simply do not 
do?
    Lieutenant General Nakasone. So, Senator, normally we're a 
very talkative bunch. I would offer that we can provide the 
perspective of our operational lessons learned. Let me take it 
from that aspect, because I think that's an important piece.
    So, when we look at the domain, there are really three 
things that I think all of us are very interested to have a 
discussion on. First of all is the discussion of risk. Who 
accepts the risk? What is the risk? How you describe the risk? 
What are the mitigations for that risk? They're elements that I 
think that we talk a lot about when we're--when we are in 
discussions and planning for cyberspace operations.
    Second thing is: What's the operational gain/loss? If we do 
this mission, or we don't do this mission, what is the 
opportunity cost for those actions?
    The third element, I would say, is: What's the intel gain/
loss? That is obviously a question that is offered by many of 
us and also those in the interagency. I think that that is 
perhaps the area that all of us, based upon our operational 
experiences, have spent some time with.
    Major General Reynolds. Yes, Senator. I guess I--I think I 
need to offer a thought, based upon Senator Nelson quoting my 
written statement, because I think this gets right to it.
    So, you know, to me, the cornerstone document is our new 
National Defense Strategy, right? So, compete, deter, and win. 
So, if I was looking at, you know, a broad set of policies, you 
know, I don't want to act like the irresponsible actors. I 
think our--we're a nation of laws. I think we, as military 
operational commanders, operate under the Law of Armed 
Conflict, rules of engagement, and special instructions so that 
we're credible and responsible in the disposition of our 
duties. But, I do think, if we want to compete, deter, and win 
in cyberspace, that we have to get, to General Nakasone's 
point, more oriented on mission outcomes and risk models and 
threat-driven operations that allow us to become the challenger 
instead of the challenged in this domain.
    So, all the things you mentioned, all the things I talk 
about, I do think we have to look at new approaches within the 
confines of our Government and what we seek to do from a 
national perspective on things like sovereignty. To your point, 
right? There is no international airspace or water in 
cyberspace. Every piece of the domain is some manmade space 
that someone says is his or hers. We have to rethink that. I 
think we have to look at--becoming the challenger is going to 
require us to be more of a 21st-century information operation; 
information warfare-cogent organization or group of interagency 
partners that wants to then, you know, do the things that are 
happening to us--to impose costs, to deny benefit, to 
demonstrate stake, and to convey the legitimacy of those 
actions to our citizenry, as well.
    Senator Rounds. Thank you.
    Senator Nelson.
    Senator Nelson. General Nakasone, you're going to be the 
Commander of U.S. Cyber Command, and it is now being upgraded 
to a combatant command. Have you thought about the possible 
unique role that you're going to be, that you may be one of the 
U.S. military establishment commanders that is actually in 
actual combat?
    Lieutenant General Nakasone. Senator, if confirmed, 
certainly I will be thinking every single day about that, and I 
have been a bit over the past couple of weeks, as I've 
testified. I would offer, as I think to this future, it's 
informed by much of what I've learned over the past couple of 
years in command of Joint Task Force Ares. If I might----
    Senator Nelson. Okay. Let me stop you there. Let me ask 
about that. Because, as the commander of Task Force Ares 
responsible for the operations to disrupt ISIS, and 
specifically to disrupt ISIS on the Internet for their 
propaganda, recruiting, and command and control, the Task 
Force's performance in its first year was rated as poor. But, 
you have testified, ``Performance has gotten a lot better.'' 
So, have you conducted operations in Task Force Ares designed 
to manipulate the thinking of ISIS [Islamic State of Iraq and 
Syria] adherence?
    Lieutenant General Nakasone. Senator, yes, we have. We have 
conducted information operations. I would offer that that's 
perhaps the piece of Ares that I've learned the most about, 
being able to provide a message, to amplify a message to impact 
our adversaries.
    Senator Nelson. So, not just disrupting their networks, but 
also conducting cognitive information operations?
    Lieutenant General Nakasone. Yes, Senator. In fairness, as 
you pointed in your opening comment, probably more at the 
tactical and perhaps operational level. But, I think that 
that's where it begins, understanding how you provide that 
message, the infrastructure that you need, the capabilities 
that are going to underpin your messaging.
    Senator Nelson. So, are you using the Army's first 
Information Operations Brigade?
    Lieutenant General Nakasone. Senator, yes, we are. 
Certainly that's one of the elements. Other elements for our 
joint force, to include our marines, our Navy and our Air 
Force, as well, Senator.
    Senator Nelson. So, now you're moving to the strategic 
level overall, not just the Army's perspective. Are there 
lessons from this task forward--the task force that can be 
elevated to the strategic level and applied to the information 
warfare threat from Russia?
    Lieutenant General Nakasone. Senator, I think there 
probably are, in terms of the lessons that we've learned in 
Ares. While I'm a bit hesitant to apply a broad brush, let me 
offer three that do come to mind.
    First of all, you have to start early. You indicated the 
first year was a difficult one for us. It was a difficult one 
for us, because we were trying to build an infrastructure, 
build capabilities, build talent.
    The second thing I would offer is: there's nothing more 
powerful than having your own infrastructure, your own 
capabilities. One of the things that the Army has provided us 
is an infrastructure that we use.
    The third thing is: it comes down to talent. Eighteen 
months ago, in a room of, you know, cyberspace operators across 
our entire force, if I would have asked the question, ``Raise 
your hand if you've conducted an offensive cyberspace 
operation,'' out of 100 soldiers, sailors, airmen, and marines, 
maybe two or three would have done it. Today, nearly the entire 
room has got their hand up, Senator.
    Senator Nelson. So, as you go on to be the four-star 
commander of a combatant command, Russia has at least some 
military units that combine technical cyberoperations and 
information capabilities. The DNI has testified that their 
operations are having strategic effects on us. That's from Dan 
Coats, the DNI [Director of National Intelligence]. Do your 
information operations units have cyber skills?
    Lieutenant General Nakasone. Our information operations 
units do have cyber skills, Senator.
    Senator Nelson. So, if all these functions are integrated 
at the service level, why do we separate them at the unified 
command level and in the Office of Secretary of Defense?
    Lieutenant General Nakasone. Well, Senator, I take your 
point. I think that's where section 1637 of NDAA [National 
Defense Authorization Act] Fiscal Year 2018 is looking at: How 
do you bring that together? How do you have one look? I believe 
that OSD [Office of the Secretary of Defense] is working that 
piece of it right now, Senator.
    Senator Nelson. Okay. As you work that, then you've got to 
have an answer to the question: Who is responsible for 
strategic information operations, the kind of operation that 
Russia has conducted against us in our elections? Anything you 
can comment on that in this setting at this time, even though 
you don't have the fourth star?
    Lieutenant General Nakasone. So, Senator, I will wait until 
the OSD has completed that study there. I think that that's 
important as we take look and move forward over.
    Senator Nelson. Okay.
    I'll just close out, Mr. Chairman, by saying that it was so 
telling when Admiral Rogers, our four-star commander, whom 
General Nakasone will relieve when Admiral Rogers retires--it 
was so telling that he said he's ready to do the attacks, but 
he has not been given the authorities. I fear for American 
democratic institutions if we don't attack.
    Thank you, Mr. Chairman.
    Senator Rounds. Senator McCaskill.
    Senator McCaskill. Thank you.
    Well, I would just like to speak briefly to you about a 
couple of issues. One is recruitment and retention of the 
personnel that we need in terms of the cyber fight. You know, 
there are many things about the Defense Officer Personnel 
Management Act that I think enhances the strength of our 
military, but there's also some things about it that don't seem 
to make much sense in certain contexts. I really would love to 
get your all's input as to how the up-or-out issue relates to 
the expertise we need in cyber. You know, I know that pilots in 
the Army can typically be warrant officers who can progress in 
rank but still continue to fly. Have we made the adjustments 
for cyber warriors to be able to adjust in rank and still be 
able to work in the cyber sector? Or are we defaulting to the 
norm, which is moving them out of that MSO [Military Service 
Obligation] into something different so that they can get 
experience throughout the various parts of our excellent 
military?
    So, I'd like each of you to address briefly the 
recruitment-and-retention issues and what issues that DOPMA 
[Defense Office Personnel Management Act] may be causing for 
our retention of the very best in this really challenging 
field? We have enough trouble competing with the private sector 
without adding in some of the challenges that are inherent in 
the current way that we develop leadership in our military.
    Admiral?
    Vice Admiral Gilday.Senator, good afternoon. Thanks for 
your question.
    So, if I could say real briefly, in terms of constraints, I 
think we have direct commission programs now, where we're 
trying to attract the best and the brightest from society to 
join us. So, their entry level is at an ensign or a second 
lieutenant. That pay is about $37,000 a year base pay. So, we 
are not competitive with the private sector, in terms of 
competing for that kind of talent. We want to go after it. 
Similarly----
    Senator McCaskill. I get--I mean, you know, we can't--I 
mean, that's what we pay somebody to answer the phones in--
around here. We're asking them to have incredible expertise. 
That seems to me totally unrealistic.
    Vice Admiral Gilday.Yes, ma'am. There have been other 
hearings on the Hill recently where this has been addressed by 
the personnel chiefs, in terms of requesting additional relief 
so that we can give people credit for their years of service in 
the outside sector and pay them what they deserve, in terms of 
being competitive with the private sector.
    In terms of up-or-out, we have not made any modifications 
yet, although we know we're going to have to take a look at 
that and do so in the future. Because, to your point, we're 
just going to hemorrhage talent at that--at those upper ranks, 
when we really don't need to. We could retain those people 
longer.
    If I could talk about the civilian force for a moment, 
that's where we do have some challenges, in terms of some 
fairly rigid guidelines that we have to follow, in terms of the 
amount of incentives that we can offer people coming in. Maybe 
a 10-percent hiring raise, maybe a 10-percent relocation bonus; 
perhaps, in some cases, accelerated promotion--but, not broadly 
enough to make us a very attractive employer for those in the 
private sector.
    I think that the Cyber Excepted Service is a step in the 
right direction, in terms of providing us more latitude. But, I 
still think the--I still think that we will likely need more 
authorities to remain competitive, or to be competitive, with 
the private sector.
    Senator McCaskill. Is there any other input that anyone 
would like to give on this subject?
    Major General Reynolds. Senator, I would just say that I 
agree with everything that Admiral Gilday said. I think cyber 
is going to be the game-changer for us. We, in the Marine 
Corps, just established the new MOS so that we could target 
incentives. Already, I think, we're going to maximize the bonus 
structure that we have inside the Marine Corps to kind of get 
after and retain some of this special talent. The Commandant 
makes the point all the time, you know, ``We may end up with a 
platoon of warrant officers, and that's got to be okay with 
us.'' So, I know, at the highest level of our service, he's 
willing to challenge status quo. The key for us is to figure 
out what exactly is that incentive? In some cases, ma'am, it's 
not pay. Sometimes it's education, sometimes it's certificates, 
sometimes it's--you know, so, for us, it's being able to target 
those incentives and have the freedom of action to do that to 
retain the best talent, ma'am.
    Senator McCaskill. Anybody else?
    Lieutenant General Nakasone. I would add to General 
Reynolds' point. For the Army, what we have taken a look at is 
our career fields. So, Senator, as you discussed the challenge 
with DOPMA right now, you know, up or out, what we have looked 
at is: Is there a career field out there for a tool developer 
that all he's going to do for 20 years is develop these 
exquisite tools? We think there is. One of the things that I 
have seen, across all the Services, the senior leadership to, 
you know, try new flexibility on these things. Are we going to 
send enlisted soldiers to get a graduate degree? Are we going 
to send them to training with industry? Are we going to do 
different type of activities that will be attractive to them? 
Not all of them will work. Some of them will. But, unless we 
try some of these things, I think that, you know, we're going 
to have a challenge in the future.
    Senator McCaskill. Well, if you have the flexibility with 
MOS descriptions and MOS incentives, then that's one thing, but 
I would really appreciate--if there are things that we could 
add to the NDAA this year to give you more tools to recruit and 
retain--there is no question that, if there is one area that I 
pretty much believe, on a bipartisan basis, everyone realizes 
that we have got to up our game, it is in cyber warfare, 
because clearly, right now, I would not say that we're winning. 
I don't like it when we're not winning. Some of that is 
complicated by policy decisions, but some of it is us getting 
the very best and the very brightest.
    If there are specific things we could do to give you 
additional flexibility or tools, I'd really appreciate it if 
you would share them with us before we begin our consideration 
of the NDAA this year.
    Senator Rounds. I recognize that you are over on time, but 
I know that General Weggeman had tried to make a comment, as 
well, and I would allow General Weggeman to respond, as well, 
if he'd like to at this time.
    Major General Reynolds. Yeah, I think my compatriots 
provided most of the responses. For me, I personally believe 
the Services recruit, first, based upon values, and then, 
second, based upon talent or skillset. I think the cornerstone 
we have as cyberspace operations professionals is our mission. 
As you all know, we're the only organization that has the 
mission to do what we do, when directed and authorized, 
legally. I look at that as the biggest retention tool we have. 
Is like--it's like young Captain Weggeman on the F-16 line. 
When I flew four times a week, I was as happy as they get. Give 
me any mission, send me anywhere. I'm up for it. It's the same 
for our cyber operations professionals. You know, reps and 
sets. So, we have to make sure we're giving them the tools, the 
infrastructures, and the environments so that they can sharpen 
and hone their tradecraft, so they get those sorties. That 
helps with retention, for sure.
    But, you know, the second thing that would help us all is, 
we're all working together. I think we're working with industry 
on cutting-edge assessment tools to assess a cyber aptitude of 
an individual when they come in front of us. What--you know, 
the interesting I--thing I learned from the people--again, I'm 
not a technologist, ma'am, I'm a fighter pilot by training, but 
what I've learned is, the biggest thing we ask them, to assess 
them, is: What do you do in your home time? Are you scripting 
on Python? Are you on a Metasploit? Are you coding? Are you 
taking Raspberry Pis and putting them together? Are you--that's 
actually one of the best, most powerful assessment tools, so 
that's one of the things that we ask them, in terms of that.
    I think you've given us a lot of the powerful arrows in our 
quiver, which is to direct assess and direct commission. The 
Air Force has--our--in 15 days from now, our first two pilot 
direct commissionees go to OTS [Officer Training School]. One 
will be a second lieutenant, one will be a first lieutenant. 
So, we appreciate that.
    We'll certainly get back to you on what we could ask of you 
in the next NDAA. But, I just wanted to offer the mission 
perspective as being the cornerstone for retention, from my 
perspective.
    Senator McCaskill. Thank you.
    Thank you, Mr. Chairman.
    Senator Rounds. Thank you.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    I just want to say, I agree with Senator McCaskill, 
strongly, that, please give us a request for authorities on any 
of the issues where you need support, resources, flexibility, 
whatever it is, any ideas.
    [The information referred to follows:]

    ARCYBER could use additional assistance from Congress in recruiting 
and retaining technically skilled talent from the civilian sector. 
While we appreciate being given statutory authority to offer 
constructive credit to potential cyber officers, that authority is 
currently limited with respect to offering military rank commensurate 
with civilian sector abilities, experience and education. The 
Department of Defense submitted a legislative proposal for inclusion in 
the Fiscal Year 2019 National Defense Authorization Act (NDAA), which 
expands constructive credit up to the rank of colonel, in both the 
Active and Reserve components. This would afford us greater discretion 
in determining the rank of the appointed officer, providing the Army a 
more robust means by which to recruit and retain soldiers with skills 
critical to the Army's cyber mission. As of the date of submission of 
this IFR Insert, LTG Stephen G. Fogarty is the commander of ARCYBER.

    Senator Gillibrand. I talked to Lieutenant General about 
this before. So, anything you need, we will provide, because we 
feel so passionately about this.
    For Generals Nakasone and Weggeman, you're both building 
out Reserve components for cyber capability right now. The 
Guard has now built a new--out--Task Force Echo, which has been 
deployed to Fort Meade. General Nakasone, what do you see as 
the long-term mission of the Army Guard cyber component?
    Lieutenant General Nakasone. Senator, you referenced our 
Guard component, we'll build 11 teams over the next 4 years. 
They will be doing both State missions, when not activated, and 
they will also be doing such things as Task Force Echo, which 
is a mobilized mission to protect our infrastructure.
    What we have found, working with the Guard, are several 
elements. First of all, incredible base of talent. Secondly is 
the ability to provide them the same training standard that our 
Active component gets. The third thing is to equip them with 
the same tools that we use on the Active side and the Reserve 
side. That's powerful for us, ma'am.
    Senator Gillibrand. I think you agree with this, but could 
the Guard help address some of the existing gaps in our whole-
of-nation approach to cyber? Could it serve as a conduit 
between State, local, and Federal Government, as well as the 
private sector, because of the unique relationships on the 
ground and authorities?
    Lieutenant General Nakasone. I do agree, Senator.
    Senator Gillibrand. General Weggeman?
    Major General Reynolds. Thank you, ma'am. Yes, I'll go 
first--last question first.
    So, absolutely. I think the Air National Guard of the 262 
Cyber Operations Squadron in Washington State is a great 
exemplar of how you can partner with State utilities, and now 
they're working through the legal dimension of even a private-
sector utility, for how we would provide support from a--an 
industrial base SCADA [Supervisory Control and Data 
Acquisition] system support and electrical power SCADA system 
support. So, that's the Guard, the citizen airmen in that 
State, helping both their State and private-sector utilities. 
That's actually ongoing. They have three dedicated ten-person 
UTCs--think of them as deployable teams--that are specialized 
in EP, electrical power, SCADA systems, as one example to this. 
So, we're already--I think that they're a great exemplar to go 
to.
    In terms of, you know, the Air Force, we've built in, in 
our CMF [Cyber Mission Force] build, Guard and Reserve 
capabilities already. So, right now we have 15 Guard cyber 
squadrons that have contributed to build three of the Active 
Duty CMF teams--two cyber protection teams and one national 
mission team. They're currently--actually, the Guard forces 
from New York, New Jersey, and Texas are the three----
    Senator Gillibrand. Great.
    General Reynolds.--States currently manning those teams. 
They've gone through ten full mobilization rotations. So, in 
dwell right now, the Air Force already has ten cyber protection 
teams in the Guard in dwell for surge capacity, if required.
    Senator Gillibrand. I'd like to ask you, for the record, 
both of you, for a--recommendations in terms of how we could 
use the National Guard to support next year's election from 
cyberattack as a critical infrastructure. I understand, from 
earlier hearings, that you don't feel you have that authority 
from the President. But, what I would like from this committee 
is recommendations to this committee that, if you were given 
that authority, what you would like to implement and what 
resources or support you would need to implement that specific 
mission. I will then use that. Because this is something that 
both Senator Rounds and Nelson have been very focused on, 
because we do see the election as critical infrastructure. We 
do see an attack on our election infrastructure as a 
declaration of war. I want to know, if we ever were able to 
give you the authority to protect the next election, how you 
would use the National Guard, specifically, to do that, and 
what additional either resources or authorities you would need 
if you were tasked with that duty. Because that's something 
this committee has been very focused on for a long time, and 
we'd like your input, specifically, if we were to do that in 
the NDAA.
    [The information referred to follows:]

    Normally, unless called into Federal service, National Guard 
support to elections is within the purview, and subject to the 
direction, of each state governor. Governors can choose to activate 
National Guard personnel in a State Active Duty status at any time they 
deem necessary and appropriate. U.S. Army Cyber Command executes its 
Title 10 training and readiness oversight of Army National Guard (ARNG) 
cyber forces by managing personnel in approved cyber training courses 
and ensuring that cyber protection teams (CPTs) meet USCYBERCOM 
established joint standards directed for all Army components. Any 
additional specialty training concerning election systems would be at 
the discretion of the relevant state governor. The Army is resourced to 
build a total of 11 ARNG CPTs, one of which will reach initial 
operational capability in September 2018, with all reaching full 
operational capability by 2022. Once at full operational capacity, the 
ARNG teams will have the training and equipment to support a range of 
missions defending critical infrastructure. Currently, our cyber forces 
execute both the Federal and state level missions. As we fully 
establish these forces, our ability to support directed operations will 
only improve. As of the date of submission of this IFR Insert, LTG 
Stephen G. Fogarty is the commander of ARCYBER.

    Major General Reynolds. Okay. So, I appreciate, ma'am, 
giving the latitude that--if the policy was given and the 
authorities were given, I think there's two specific things 
that I think are essential, and it kind of goes to the fire 
forces we've learned that can fight fires, and it goes to pre-
scripted knowledge and missions. Unless you want us to be what 
I would call a ``wet cleanup on aisle five force,'' if you want 
us to be there and preventatively build security----
    Senator Gillibrand. Correct.
    General Reynolds.--and defense to thwart malicious 
cyberactivities, we would need the authorities and the tools 
and the infrastructure--some of our defensive kits--that are 
purposely tailored to the networks and systems that you would 
want us to support the State and local SCADA--or, sorry, 
infrastructure CICR systems with. So, you know, we need to know 
the networked topology, we need to know the hardware, firmware, 
software that it operates so that we could be responsive, we 
could sensor, we could share information, and we could be 
proactive in defense.
    Senator Gillibrand. So, that is the guidance I'd like you 
to write to this committee by letter to say, ``If we were ever 
given this responsibility, if we were ever given this 
authority, these are the ten things we would need.'' That's 
item number one. ``We would need access to all the information 
and systems that are used, State by State. We would need access 
to the resources to be able to develop expertise in each of 
these systems. We would need X, Y, and Z.''
    So, just tactically, what do you need? Then, we can at 
least, as a committee, decide: Do we want to put that in the 
NDAA as authorities for you to then go ahead and do? Obviously, 
the President would have to sign off on that. But, as our work 
from the committee, we've had so many hearings on cyber, 
specifically, and I feel like your hands have been tied every 
time we talk about one critical infrastructure, which is our 
electoral system. We already know we have foreign adversaries 
who are hammering it daily. We also know that you--that we now 
have the technology, because we had a hack-a-thon and actually 
effectively hacked vote totals. Our own cyber experts could do 
that within, I think, a 24-hour period. So, we know what the 
vulnerabilities are. I just want to proactively know from you 
guys, with your expertise, what you would need if I was--if you 
were told you need to prevent this and you need to start a new 
mission.
    Major General Reynolds. Yes, ma'am.
    Senator Gillibrand. So, just guidance, so we know what it 
looks like. We also have several private-sector think tanks 
working on this, as well, what would be their recommendations 
to go to every one of the 50 Secretaries of State. We'll have 
that information soon enough. We have a bill with--Senator 
Graham and I--to create a 9/11-style deep dive to assess what 
are the vulnerabilities and what are the ten things, as a 
secondary effort, too. But, in the meantime, I'd like your 
guidance, because if we can put it in the NDAA in April--or, 
when is the--it's soon. It'll be soon.
    Senator Rounds. We're in the middle of it now.
    Senator Gillibrand. Yeah, right now. So, it'll be soon when 
we get to vote on it.
    Thank you.
    Senator Rounds. Senator Nelson, I know that you're time-
constrained, but if you'd like to make some comments or 
questions here, we'll do that before we start to finish up here 
a little bit.
    Senator Nelson. Thanks.
    General Nakasone, on the issue of direct commissioning, 
what are the legal limits that you cite? Should we alter them 
so that this program can be successful?
    Lieutenant General Nakasone. Senator, what we are facing 
right now is an inability to grant constructive credit. As 
Admiral Gilday spoke to, constructive credit is the recognition 
of someone's abilities or experience in the civilian sector 
transformed and measured against what rank they may come in 
within the military. Right now, I believe that we are limited 
to first lieutenant--bringing them in as a first lieutenant. 
So, we would like greater flexibility on that, based upon 
greater experience.
    I think that's important when you think about some of the 
capabilities and some of the talent we're looking for--people 
in big data, artificial intelligence, machine learning, 
forensics malware analysis. Those are all things that are not 
necessarily attractive to come in as a young first lieutenant.
    Senator Nelson. Do you think that's hampering us getting 
people to join?
    Lieutenant General Nakasone. I do, Senator.
    Senator Nelson. So, how do you fix that? Put them at a 
higher rank?
    Lieutenant General Nakasone. So, one of the things we've 
been working with your staffers is to look at how we better 
measure constructive credit to allow them to come in at a 
higher grade.
    Senator Nelson. General Reynolds, tell me, if a--if you get 
a direct commission into the Marine Corps, does that mean that 
they still have to be able to do 15 pull-ups?
    Major General Reynolds. Yes, sir.
    Senator Nelson. Good.
    [Laughter.]
    Senator Nelson. I'm glad, General.
    Why should cyberspace be any different from other domains? 
Do we need the legislation to establish, without a doubt, that 
traditional military activities include cyber operations?
    Well, General Nakasone, you're going to be the big chief--
--
    [Laughter.]
    Senator Nelson.--so why don't you try to answer that?
    Lieutenant General Nakasone. So, I don't think it should be 
any different than the other domains, Senator. I think that 
this has been a product of, you know, a very, very young and 
maturing force that we have, you know, some unique capabilities 
and characteristics of how we operate. Not having borders is 
something that, you know, really isn't applicable in the other 
domains, minus space. So, one of the things that we, again, 
have come to is, you know, being able to define traditional 
military activities has sometimes been hard. It's much harder 
if you're not operating in this space. Now that we are 
continually operating in this space, I think we have a much 
greater way of being able to determine what traditional 
military activities are.
    Senator Nelson. Thank you.
    Senator Rounds. Admiral Gilday.
    Senator Nelson. Sure.
    Vice Admiral Gilday.Briefly. Sir, I'm--I respect your time, 
as you want to depart. The comment that I'd make with respect 
to cyber and traditional military activities is that the longer 
that it takes to integrate cyber into the other warfighting 
domains, the longer it takes to normalize it, the less--the 
longer it takes for people to get comfortable with it, and the 
more it's treated as a special kind of action that it's 
difficult to get authorities for.
    To the point that you made in your opening comments about 
the Russians--and it's related to this--we're at a point right 
now where we've allowed the Russians to establish those 
boundaries. We have allowed them--in any other space--the 
maritime, the air, the land--you want to gain access so that 
you can dominate. You want to put the enemy--you want to be in 
a position to dominate, whether it's physically or, in this 
case, virtually. The Russians, the Chinese, the North Koreans, 
when you talk about authorities, they have different rule sets, 
they have a lower threshold for aggression. So, they are 
gaining the initiative. So, it becomes more difficult for us to 
gain a position of advantage and to do the things that you want 
us to do.
    Changing policy is one thing. The will to act is a 
completely different problem set that is just as important as 
changing PPD-20 or changing any policies that underlie how we 
act in this space.
    Senator Rounds. Thank you.
    I'm going to follow up on this, because I think this really 
gets to the root of a lot of the questions that you've heard 
today, and comments that you've heard today. I know that 
Senator Gillibrand has discussed the issue of the electoral 
process and how critical that is. But, I think you can look at 
almost any of our critical infrastructure right now and you can 
just simply ask the same question, and that is, If this was act 
of war or if this was an act of aggression using kinetic 
forces, whether by air, land, or sea, there would be an 
expectation by the American public that our defense forces 
would be in a position to respond, to defend? But, then also 
there would be an expectation that the deterrent forces would 
come to bear. Seems that with regard to cyber, we have yet to 
establish what those incidents are and at what point they reach 
the point to where there has to be a deterrent reaction on our 
part.
    The Defense Science Board made it very clear that with--for 
the next 10 years, our defensive capabilities will not be equal 
to the offensive capabilities of our peer competitors. It's 
become very clear--and I think the discussion--and, Admiral 
Gilday, I think you made mention to it--Russia has a different 
norm, in terms of what they see as the opportunities within the 
cyber domain. I think we've seen that with a number of the peer 
competitors and also some rogues, as well. That is, is that 
they have used cyber as a way to impact our Nation's--our 
assets--in some cases, critical infrastructure and, in some 
cases, an electoral process. But, most certainly, they do it 
right now without a sense that we're prepared to offer that 
deterrence.
    Can we talk a little bit about what it would take and about 
the challenges--not so much--and I recognize that this is an 
open session, but I think it's really important to lay out, you 
know, as I said, that--when we talk about NATO issues and so 
forth, and we talk about international norms, there is Tallinn 
1 and there is Tallinn 2.0, both of which try to establish what 
rises to an act of war in cyberspace and also what the 
incidents are that have to be responded to. Isn't it really 
true that, here, we have huge defensive capabilities, and that 
we have huge capabilities with regard to being able to 
infiltrate silently and gather a huge amount of data, as good 
as anybody in the world, and yet, at the same time, because we 
want to make sure that we follow the norms and that we are a 
respected neighbor, that we are very, very careful about how we 
respond in the domain of cyber? If it was air, land, or sea, 
there could be hell to pay, but in cyber we're not quite 
prepared to identify and to state publicly what those norms 
are.
    What are the policy discussions--and if I had a group of 
enlisted men and women sitting in front of me right now who are 
on the front lines doing this, and it was in a classified 
setting, they would spill their guts about how frustrated they 
can be at times and what they would really love to be able to 
do, but they recognize their responsibility to adhere to clear 
policy choices.
    I know this is more of a statement than it is a question, 
but it's your turn now. You've thought about this a lot. Can 
you, in this open space, talk a little bit about the challenges 
that you see, and perhaps some of the frustrations that you 
have, in terms of protecting our critical infrastructure, 
civilian resources, and so forth, that perhaps the public 
simply doesn't recognize and that we should be talking about 
more?
    Lieutenant General Nakasone. Senator, I'll begin on this. 
This is a very important question.
    So, I think it begins with: What is the strategy for the 
defense of the Nation in cyberspace? That is an overall 
question that I think has to be asked, has to be debated, has 
to be discussed amongst policymakers, the American people, and 
others.
    Senator Rounds. Would you--let me just stop you right 
there. Fair to say that we really don't have a true cyber 
policy established yet?
    Lieutenant General Nakasone. So, I've learned, from my 
testimony over the past couple of weeks, Senator, that this 
committee has asked many times for a policy, and that one still 
has not been delivered. That's correct.
    Senator Rounds. Okay.
    Lieutenant General Nakasone. I would offer that, when we 
think about other defense of the Nation in cyberspace--roles, 
responsibilities, functions, missions--what are the elements 
that make it up? What are the parts of the government, what's 
the responsibility of the private sector that owns 90 percent 
of the networks that are necessary to protect?
    The next thing I think about a lot is: What are the 
thresholds of support? So, when we think about this, how much 
of this responsibility should reside with the private sector, 
and at what point, when a nation-state actor has taken after 
our critical infrastructure, does it become the responsibility 
of the Department of Defense to defend the Nation? That is 
still a discussion point that I think is, you know, one to be 
had.
    So, those are just a couple, Senator, that I would offer as 
I've thought about this question over the past several months.
    Senator Rounds. General Reynolds.
    Major General Reynolds. Yes, sir. I'd like to just add one 
or two thoughts on this.
    One of them is that--I guess in my time in command at 
MARFORCYBER, going back to the Defense Science Board and what 
they learned about, you know, deterrence, one of the key 
findings was that we need to be able to deny the adversary. I 
don't want to speak for all of my peers here, sir, but we have 
spent an enormous amount of time even inside the service on 
this denial piece: How we make sure that what I own is 
defensible? There was a lot of work to do. So, moving forward, 
will we have additional capacity? Yes, sir, I think we would.
    But, the other thing that I would like to make sure that we 
make a point here, in that--and it goes back to the JTF Ares 
lessons learned. What Ares did, I think, for U.S. Cyber Command 
was provide a--number one, a joint capability inside U.S. Cyber 
Command, so you have all the Services represented there, but it 
also gave an opportunity for the combatant commands to reach 
into Cyber Command. In one single entry point, it gave the 
interagency one place, it gave our allies and partners one 
place to come in the counter-ISIL [Islamic State of Iraq and 
the Levant] fight. That was enormously important.
    So, I think, organizationally, moving forward: Who are the 
other combatant commanders that are involved in the plan 
against Russia? How are we organizing ourselves? It's really 
essential, Senator.
    Senator Rounds. Thank you.
    General Gilday.
    Vice Admiral Gilday.Sure. Thanks for your question.
    The main point that I want to make is that the force is not 
big enough, not based on the discussion that we had in this 
room this afternoon. If there's expectations to protect 
critical infrastructure, to hold significant adversaries at 
risk, adversaries that we are in contact with every day, then 
more needs to be done, in terms of the buildout and the 
development of a cyberforce that is comparable to the Nation's 
reliance on cyberspace for our economy, for our quality of 
life. It touches everything that we do. It's gigantic. And you 
take a look at the force, and you take a look at the number of 
trigger-pullers we have, 6,200--6,200. Take a look at the 
United States Navy, take a look at the United States Army, take 
a look at the Marine Corps, the smallest of the Services, and 
the Air Force, and make a comparison there. Based on what we 
talked about this afternoon in this room, the importance of 
cyberspace to the American people, to our quality of life, I 
think that that has to, at some point, be reassessed. I think 
that the things that we have learned over the last 2 years need 
to play into that assessment. I think we need to be honest with 
ourselves. I think we need to act more boldly.
    Senator Rounds. General Weggeman.
    Major General Reynolds. There's a benefit of going last. I 
think a lot of the key points I would make--to Admiral Gilday's 
last point, I agree. The scope and scale of CICR is extremely 
vast. And I agree, our force is too small. So, we will have to 
think deliberately and calculated, in terms of what would be 
DOD's role in--to support that, and how do we best use a high-
demand, low-density force, if a policy is written to where we 
would provide that, above and beyond the National Guard or the 
Reserves?
    You know, so, as the former J5 at Cyber Command, I've been 
thinking about, you know, the cyber deterrence question for a 
long time, and I'll give you, simplistically, my frame.
    The first thing is, the phrase is flawed. I believe the 
proper way to say it is ``cyber indeterrence.'' Cyber--it's--
what is cyberspace operations' role, offense and defense, in a 
national strategic deterrence campaign? Admiral Rogers 
testified that, you know, sometimes you don't want to use cyber 
when you come back. So, it's got to be a whole-of-government, 
if not whole-of-nation, campaign.
    The second thing about any indeterrence is: Deter what? I 
think what we constantly come back to in this forum is, we want 
to say we want to deter malicious cyber activity. So, if we 
want to deter or erode an enemy's confidence in their ability 
to pitch malicious cyber activity at us, again, we need to use 
every arrow in our quiver as a nation to deter that activity. 
We are but one. We may be the least--have the least amount of 
capability or capacity. So, we have to go to other things. But, 
I do think it's all about ``cyber indeterrence,'' and that's 
really important.
    I go back to the classic principles of, you know, within 
cyber we have to be able to impose cost, we have to be able to 
deny benefit, and maybe we do one in the cyberspace domain and 
other in another domain, whether it's land, sea, maritime, 
information, leveraging State Department or FBI [Federal Bureau 
of Investigation] or other agency partners.
    The last is the concept of--in the Defense Science Board 
study, everything is about taking that first hit. It's a 
constant thing. For those of us who have been around, this is 
an offense-dominant domain. Our adversaries have exquisite 
capabilities. If you want to be that second-strike force, you 
may not have that luxury. It's hard to recover. So, I think we 
have to do a hard look at a nation, given the exquisite 
insights that our intelligence community can generate, the 
exquisite insights that our cyber forces and operators can 
generate. What is the--what is our realm of strategic 
preemption? When would we have thresholds or triggers where we 
would strategically preempt a large release of malware that 
would take us down and set us back on our feet for a year?
    Senator Rounds. Thank you.
    Now, let me just finish with this. General Nakasone, the 
Ares project, they pointed out earlier that there were some 
challenges there, and that some of the conditions weren't the 
best. And yet, unless we clearly look at and we--we're critical 
in the way that we analyze our successes and where we need to 
improve, we're not really doing our job. So, the fact that we 
could have a frank discussion about improvements and so forth, 
that's a positive thing. Showing how far we've come in a very 
short period of time with regard to this particular domain, I 
think, is critical in creating more successful opportunities in 
the future. If we ever get to the point where we can't look at 
those criticisms and say, ``These are learning experiences, and 
we can do better, and we will learn from them,'' then we're in 
real trouble.
    So, I--first of all, I don't take offense from someone 
suggesting that there were challenges with a program and that 
we're going to have to do better in the future. I think that's 
the way that it was perceived by the panel that's before us 
today. I appreciate that.
    Second of all, I think what we've talked about here today, 
while we're talking about the positioning, the capabilities of 
our forces today from your perspective, I think what you've 
given us, in terms of an insight as far as what the policy 
issues are and the understanding of the American public with 
regard to your mission right now and the role that you have 
been asked to play, versus what I think in many cases is the 
expectation of an American public that says, to begin with, 
``If someone attacks us in cyberspace, we should hit them hard 
in cyberspace'' versus--the appropriate role is--just because 
someone attacks us by sea doesn't mean we necessarily have to 
attack only by sea. We can attack in a whole lot of different 
domains. But, it does require this, that unless we are dominant 
in air, land, sea, space, and cyber, our adversaries will take 
advantage of any opening they see.
    And so, with that, I want to say thank you to Senator 
Gillibrand for being able to attend with us again today. I want 
to thank all of our witnesses here today for your testimony. 
This is not the last that we will see you all in front of our 
committee again.
    And, General Nakasone, we look forward to visiting with you 
in a new role, as well, when the opportunity comes.
    And unless any one of our witnesses has anything further to 
add, we will call an adjournment to this meeting at this time.
    Thank you.
    [Whereupon, at 3:49 p.m., the subcommittee adjourned.]

                                 <all>
</pre></body></html>
